       INSPECTOR GENERAL
     DEPARTMENT OF DEFENSE




SEMIANNUAL REPORT TO THE CONGRESS



     October 1, 1998 - March 31, 1999
          Mission Statement
The Department of Defense
Inspector General promotes national
security and integrity and credibility in
Government by conducting objective
and independent audits, investigations,
evaluations and other activities to
prevent, detect and help correct
problems in DoD programs and to
identify opportunities for improving
efficiency and effectiveness.
Semiannual Report to the Congress                                                                                               Table of Contents




                                               TABLE OF CONTENTS
                                                                                                                                           Page

HIGHLIGHTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
      Chemical and Biological Defense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
      Bribery, Kickbacks and Corruption . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
      Procurement and Health Care Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
      Other Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

CHAPTER ONE – REDUCE HIGH RISK VULNERABILITIES . . . . . . . . . . . . . . . . . . . .1
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
      High Risk And Special Emphasis Areas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
      Acquisition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
      Financial Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
      Infrastructure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
      Information Technology Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5

      Special Emphasis Area--Chemical And Biological Defense. . . . . . . . . . . . . . . . . . . . . . .9
          Chemical And Biological Threat . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9
          Protective Masks . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9
          Weapon Systems. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10
          Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10
          Classified Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

      Special Emphasis Area--Bribery, Kickbacks And Corruption
        In DoD Programs And Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13
          Investigative Responsibilities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14
          Congressional Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14
          Fraud Awareness Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15
          Case Examples . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15
          Summary. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17

CHAPTER TWO - SIGNIFICANT ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
      Criminal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
      Hotline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29
      Administrative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .30
      Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .35
      Intelligence Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .37
Table of Contents                                                                               Semiannual Report to the Congress




APPENDICES
    A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . A-1
    B. Inspector General, DoD, Audit Reports Issued Containing
       Quantifiable Potential Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .B-1
    C. Followup Activities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .C-1
    D. Contract Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1

FIGURES
    1. Procurement Fraud and Major Health Care Fraud Investigative
       Case Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20
    2. Suspensions and Debarments Resulting from Investigations . . . . . . . . . . . . . . . . . . . . .26
    3. Other Criminal Investigative Results. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .27
    4. Whistleblower Reprisal Inquiries by Category of Employee -
       Open as of March 31, 1999. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .32
    5. Whistleblower Reprisal Inquiries by Office Conducting Review -
       Open as of March 31, 1999. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .32
    6. Program Integrity - Senior Official Inquiries Open as of March 31, 1999 . . . . . . . . . . .34
    7. Program Integrity - Nature of Substantiated Allegations Against Senior
       Officials During 1st Half FY 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .34
                                         FOREWORD
It is my pleasure to report on the accomplishments of the Office of the Inspector General,
Department of Defense, for the period October 1, 1998, through March 31, 1999. The report
summarizes significant Department-wide audit and investigative efforts during this period. Over-
sight projects relating to the intelligence community are discussed in a separate classified annex.

The Highlights section provides a brief overview of the most significant issues discussed in the
report. Chapter One contains brief updates on what we consider to be the Department’s principal
high risk areas. We have also included more detailed discussions of two special emphasis areas--
Chemical and Biological Defense, and Bribery, Kickbacks and Corruption. Chapter Two contains
discussions of other important audit and investigative efforts that took place during the period,
again resulting in significant criminal prosecutions and the identification of large dollar savings
and recoveries.

This reporting period has been especially busy and productive. Supporting the Year 2000
conversion remains our top discretionary internal audit priority. We also continued to devote
significant resources in working with the Department toward achieving unqualified opinions on
critical financial statements. Although this goal is not yet at hand, progress is being made through
cooperation among our office, the Department, the General Accounting Office and the Office of
Management and Budget. We are also working closely with the Department in the areas of
acquisition reform legislation and in the development of a strong computer intrusion investigation
unit.

Also of note, we were successful in gaining support within the Department relative to our
resource shortages and, absent unplanned reductions, we will be able to meet our statutory
mission with respect to the audit and investigation of high risk programs within the Department in
the coming years.

Finally, the close of this period also coincides with the departure of Inspector General Eleanor
Hill who, after more than four years of outstanding service as Inspector General and more than 24
years of total Government service, has moved on to the private practice of law.

The men and women who comprise the Office of the Inspector General continue to maintain
excellence and professionalism in their work and remain committed to helping make the
Department of Defense a stronger, safer and more efficient organization.




                                         Donald Mancuso
                                     Acting Inspector General
This page left blank intentionally
Semiannual Report to the Congress                                                             Highlights




HIGHLIGHTS

INTRODUCTION                During the 6-month period ending March 31, 1999, the Office of the
                            Inspector General, Department of Defense (OIG, DoD), continued to
                            place considerable emphasis on the principal high risk areas in the
                            Department: Acquisition, Financial Management, Infrastructure and
                            Information Technology Management.

Acquisition                 In fiscal year 1998, the DoD purchased over $131 billion of goods and
                            services, using more than 250,000 contracts, grants, cooperative
                            agreements and other transactions. We have reported that progress is
                            being made in some areas of Defense acquisition reform, specifically in
                            administrative lead-time for procuring parts and supplies, which has
                            decreased by an average of 14 percent since similar audits in 1995.
                            Despite some progress, major challenges remain, especially in
                            overpricing, acquisition cycle time and unit costs for weapon systems.

Financial                   The DoD continues to lack systems capable of compiling financial
Management                  reports that comply with Federal accounting standards and laws, nor will
                            these systems be in place for several more years. Likewise, the labor
                            intensive workarounds used to formulate the annual statements are
                            fundamentally ineffective, but will not be replaced until efficient
                            automated approaches are feasible. This year, financial statements were
                            more untimely than ever, and a record $1.7 trillion of unsupported
                            adjustments were made in preparing the statements. More positively,
                            there has been a continued and closely coordinated effort to develop
                            sound action plans for implementing the new Federal accounting
                            standards and addressing impediments to favorable audit opinions.
                            Likewise, the DoD Biennial Financial Management Improvement Plan
                            has the potential to develop into an excellent management tool for
                            ensuring full visibility by senior DoD managers and the Congress into the
                            crucial financial management system remediation projects.

Infrastructure              The results of recent audits indicate a need for supply depots to better use
                            direct vendor delivery contracts and for program offices to better manage
                            Government property provided to contractors. Also, if additional base
                            closure rounds are approved by the Congress, it is highly advisable for
                            the DoD to ensure strong management controls over the collection and
                            reporting of comparative cost and workload data to the decision makers.

Information                 The DoD uses about 28,000 information systems and spends roughly $14
Technology                  billion annually on the systems’ development, modification and upkeep.

                                                   i
Highlights                                               Semiannual Report to the Congress




                The major challenges in the information technology area relate to system
                development management and oversight, information assurance and the
                Year 2000 (Y2K) problem. Based on a summary of 43 audit and
                inspection reports issued on Year 2000 Conversion, we agreed with the
                Department’s reports of accelerated Y2K action and significant progress
                made during the first half of fiscal year 1999 on the Y2K issue. We are
                confident that with continued intensive management, the DoD will not
                suffer system failures significant enough to impair critical mission
                performance. Still, much work needs to be done to address risk related to
                the remaining noncompliant systems, host nation support, supplier
                outreach and mainframe computer compliance.

CHEMICAL AND    Although the United States stands as the world’s only superpower, the
BIOLOGICAL      proliferation of chemical and biological warfare capabilities has
DEFENSE         significantly increased the probability that U.S. forces will face chemical
                or biological agent attack in a future conflict. Defending against chemical
                and biological weapons requires protective equipment and proper
                training in its use. Recent audits of protective masks found that there
                were numerous problems related to their testing and user training. Other
                audits of weapon systems found a lack of consideration for crew
                protection and system operability in a contaminated environment and
                inconsistency when planning maintenance or decontamination
                procedures.

BRIBERY,        Corruption within the procurement arena undermines the entire
KICKBACKS AND   procurement process and jeopardizes the health and safety of our combat
CORRUPTION      troops. It costs the American taxpayer millions of dollars and erodes the
                trust and confidence of the public. Corruption investigations have
                uncovered kickbacks and bribery at the core of the criminal activity
                involving Government and private industry personnel. Because
                kickbacks were so pervasive in subcontracting in the Defense industry
                and existing laws were inadequate to handle the problem, the Anti-
                Kickback Act of 1986 was passed to close the loophole relating to
                subcontracts and to broaden the coverage of existing legislation. As a
                result of the Act, the number of subcontractor kickback investigations
                has increased dramatically. The use of multiagency, multidisciplined task
                forces; informants; polygraph examinations and undercover operations
                have been very successful in uncovering culpable DoD and contractor
                employees. Examples of some significant corruption cases are included
                in the special emphasis area of this report.




                                      ii
Semiannual Report to the Congress                                                             Highlights




PROCUREMENT AND             The DoD investigation community continued to place emphasis on major
HEALTH CARE                 procurement and health care fraud. As a result of these efforts, the DoD
FRAUD                       investigators obtained 79 convictions and over $61 million in monetary
                            outcomes. Other significant investigations resulted in 176 convictions
                            and monetary outcomes of over $35 million. In addition, 95 suspensions
                            and 71 debarments of companies and individuals resulted from criminal
                            investigations.

OTHER ACTIVITIES            The OIG, DoD, also has a Departmental Inquiries Office, which conducts
                            investigations of allegations of whistleblower reprisals and senior official
                            misconduct. The case of a senior officer, which involved allegations of
                            adultery and improper relationships, was referred to the cognizant
                            Military Department for action. As part of a pre-trial agreement, the
                            senior officer pled guilty to seven counts of conduct unbecoming an
                            officer and one count of making a false official statement. The officer
                            was only the third general or flag officer court-martialed since the
                            enactment of the Uniform Code of Military Justice in 1950. Pursuant to
                            the pre-trial agreement, he received a reprimand and fines and forfeitures
                            totaling $22,000. The sentence is pending action by the General Court-
                            Martial Convening Authority.




                                                  iii
Highlights                                    Semiannual Report to the Congress




             This page left blank intentionally




                           iv
Semiannual Report to the Congress                                                        Chapter One




CHAPTER ONE – REDUCE HIGH RISK VULNERABILITIES

INTRODUCTION                The DoD audit, inspection and investigative communities act as agents of
                            positive change in identifying better ways to accomplish the DoD
                            mission by controlling risk, fighting fraud and reducing costs. By closely
                            linking our oversight activities with the Department’s strategic goals and
                            management improvement plans, as well as extensively participating in
                            DoD team problem solving efforts, we provide objective, relevant,
                            practical and timely advice to policy makers, managers and commanders.

HIGH RISK AND               In previous semiannual reports, we discussed the principal high risk areas
SPECIAL EMPHASIS            in the Department—Acquisition, Financial Management, Infrastructure
AREAS                       and Information Technology Management. In addition, we discussed
                            various focus areas where there were numerous significant audits and
                            investigations—in the last report the focus areas were Year 2000 Conver-
                            sion and Financial Management. In this report, we again provide updates
                            on the main high risk areas. We also discuss two focus areas—Chemical
                            and Biological Defense and Bribery, Kickbacks and Corruption in DoD
                            Programs and Operations.

ACQUISITION                 In fiscal year 1998, the DoD purchased over $131 billion of goods and
                            services, using more than 250,000 contracts, grants, cooperative agree-
                            ments and other transactions. The Department is currently administering
                            about $800 billion in open contracts. During this semiannual period, the
                            DoD audit agencies reported on a wide range of acquisition matters,
                            issuing 37 internal audit and 18,372 contract audit reports. We also
                            participated actively in over a dozen acquisition reform task forces and
                            commented extensively on proposed acquisition legislation. The DoD
                            criminal investigative agencies aggressively pursued cases involving
                            bribery, kickbacks, mischarging, product substitution, false claims and
                            other procurement matters, as discussed in Chapter Two.

 “...progress...in some areas of Defense In a March 1999 statement for the record to the
 acquisition reform is encouraging.”          Subcommittee on Readiness and Management
                                              Support, Senate Armed Services Committee, the
                                              Inspector General (IG), DoD, stated that the
                        progress being made in some areas of Defense acquisition reform is
                        encouraging. For example, during this semiannual period we reported
                        that the administrative lead-time for procuring parts and supplies
                        decreased by an average of 14 percent since similar audits in 1995, with
                        some activities achieving as much as 50 percent reductions.



                                                  1
Chapter One                                                         Semiannual Report to the Congress




                           Despite indications of progress in acquisition reform, major challenges
                           remain. Although lead-times for procuring spare parts have been cut,
                           audits continue to show overpricing, and there is little indication yet of
                           significant improvements in acquisition cycle time and unit costs for
                           weapon systems.

                         During the reporting period, the Defense Logistics Agency took
                         responsive action to avoid excessive prices for spare parts, but the Office
                         of the Under Secretary of Defense (Acquisition and Technology) failed
                                                   to follow through on commitments to clarify
 “...procedures still need to be developed... guidance. Specifically, contracting officers
 to address overpricing...of sole source           need to be encouraged to require information
 contracts for aviation spare parts.”              (other than certified cost or pricing data) to the
                                                   extent necessary to determine price reasonable-
                         ness for commercial items. Likewise, procedures still need to be
                         developed to implement the provisions in the Defense Authorization Act
                         for Fiscal Year 1998 to address the overpricing problems identified in
                         previous audits of sole source contracts for aviation spare parts.

                           Several audit reports issued during the period addressed problems in
                           support service contracting. These problems include lack of competition,
                           potential conflicts of interest and contract administration inadequacies in
                           areas like multiple award contracting, which is intended to allow quick
                           procurement while using competition between pre-qualified bidders to
                           obtain best prices. The DoD awarded 636 multiple award contracts from
                           fiscal years 1995 through 1998. Each multiple award contract could
                           result in the issuance of numerous task orders. The audits examined
                           orders awarded under 50 multiple award contracts with a total contract
                           ceiling amount of $2.6 billion. We found that contracting officers
                           awarded 66 of 124 (53 percent) task orders for $87.6 million on a sole-
                           source basis, without adequate justification for denying other contractors
                           a fair opportunity to be considered. During the audit, we encountered
                           discouraged vendors who were afraid to challenge prospective awards
                           because of concern about future dealings with the same contracting
                           officer and program office. We recommended several actions to increase
                           competition in the award of task orders for services under multiple award
                           contracts. Because of reported problems in this area, the Office of
                           Federal Procurement Policy issued guidance to stop program offices
                           from designating preferred vendors and set a goal that 90 percent of the
                           task orders should be competitive.

                           We continue to have concerns about the adequacy of DoD Acquisition
                           Corps training during the present era of rapidly changing rules and

                                                 2
Semiannual Report to the Congress                                                         Chapter One




                            initiatives. We see the need for increased in-service training within the
                            Acquisition Corps so that its members can remain abreast of these
                            changes in policy.

                            The lack of cost accounting systems to enable managers to track life
                            cycle costs, funding instability and flawed requirements determination
                            processes add to acquisition risks. In addition, there has been
                            considerable recent dialogue within the Department about suggestions to
                            repeal or limit controls that have been proven effective over time, such as
                            the False Claims Act, Truth in Negotiations Act, Cost Accounting
                            Standards, the statute that prevents contractors from charging
                            unallowable costs and the Defense Contract Audit Agency’s (DCAA)
                            activities. We believe that consolidating and evaluating the results of
                            previous reform legislation should be a generally higher priority at this
                            point rather than seeking radical changes. All proposed changes should
                            be based on comprehensive research, have predictable results and entail
                            specific metrics for assessing implementation progress and results.

FINANCIAL                The DoD is the largest holder of Government physical assets ($1.3
MANAGEMENT               trillion), pays 2.2 million employees and 1.7 million retirement or
                         disability beneficiaries, administers the most complicated chart of
                         accounts and manages a tremendously diverse mix of operating and
                         support functions. Major efforts to achieve better integration of finance
                         and accounting activities with DoD acquisition, logistics and personnel
                         functions and to reengineer financial management practices and systems
                                                  have been underway for nearly 10 years. Several
 “...financial audits are the top priority of more years and much additional effort will be
 the DoD internal audit community....”            needed to achieve the DoD improvement goals.
                                                  Because of the extensive mandatory require-
                                                  ments of the Chief Financial Officers Act and
                         related statutes, financial audits are the top priority of the DoD internal
                         audit community, which devoted over 600 work years to this area during
                         fiscal year 1998. During the reporting period, 76 financial audit reports
                         were issued, including opinion reports on the financial statements for 10
                         major funds and the overall Department.

                          The results of the audits of the DoD financial statements for fiscal year
                          1998, when viewed solely in terms of audit opinions, were identical to
                                                  the po or results from previou s years. The
 “...audits of the DoD financial statements
                                                  Military Retirement Trust Fund received an
 for fiscal year 1998...in terms of audit
                                                  unqualified audit opinion; however, disclaimers
 opinions, were identical to the poor
                                                  of opinion were necessary for the consolidated
 results from previous years.”
                                                  DoD statem en ts and al l o th er majo r fun d

                                                  3
Chapter One                                                        Semiannual Report to the Congress




                           statements. The DoD continues to lack systems capable of compiling
                           financial reports that comply with Federal accounting standards and
                           laws, and these systems will not be in place for several more years. Like-
                           wise, the labor intensive workarounds currently used to formulate the
                           annual statements are fundamentally ineffective, but will not be replaced
                           until efficient automated approaches are feasible. This year, final state-
                           ments were more untimely than ever and a record $1.7 trillion of
                           unsupported adjustments were made in preparing the statements.

                           On a more positive note, there have been continued, closely coordinated
                           efforts by the Office of Management and Budget, General Accounting
                           Office (GAO), DoD Chief Financial Officer and OIG, DoD, auditors to
                           develop sound action plans for implementing the new Federal accounting
                           standards and addressing impediments to favorable audit opinions.
                           Although not all issues concerning how to interpret and implement the
                           standards have been resolved, the degree of consensus is much broader
                           now than ever before. Likewise, the DoD Biennial Financial Manage-
                           ment Improvement Plan, which was required by the National Defense
                           Authorization Act for 1998, has the potential for developing into an
                           excellent management tool that will help ensure full visibility for senior
                           DoD managers and Congress into the crucial financial management
                           system remediation projects. We made numerous recommendations for
                           improving future versions of the Biennial Plan. In addition, we strongly
                           support developing a fully integrated management process that actively
                           involves all DoD functional communities in the systems improvement
                           effort, using the Year 2000 Conversion effort as a general model.

                           Combating fraud involving DoD finance activities, especially vendor
                           pay, remains a high priority. As of March 1999, the Defense Criminal
                           Investigative Service (DCIS) had 81 open financial fraud cases.
                           Examples of recently closed cases and proactive initiatives are discussed
                           in Chapter Two.

INFRASTRUCTURE           For purposes of this report, this category includes DoD activities related
                         to supply, maintenance, transportation, health care, facilities,
                         administration and other support functions. The DoD continues to press
                         forward with over 200 separate initiatives to reduce support costs. These
                         initiatives include seeking new base realignment and closure authority,
                                            continued efforts to attain total visibility over inven-
 “The DoD continues to press                tory to facilitate better redistribution and procurement
 forward with over 200 separate             decisions, evaluation of 250,000 more positions for
 initiatives to reduce support costs.”


                                                 4
Semiannual Report to the Congress                                                           Chapter One




                            outsourcing potential and adoption of commercial “just in time” delivery
                            practices.

                            Progress in this area is mixed and the lack of good cost baselines from
                            which to measure results continues to be a problem. About 64 audit
                            reports were issued during this semiannual period on this area. Findings
                            included the need for supply depots to better use direct vendor delivery
                            contracts and for program offices to better manage Government property
                            provided to contractors. Internal audits also identified activities that were
                            lagging in compliance with statutory requirements for replacing or
                            renovating underground storage tanks by December 1998.

                            If one or more additional base closure rounds are approved by Congress,
                            it will be highly advisable for DoD to ensure strong management controls
                            over the collection and reporting of comparative cost and workload data
                            to the decision makers. In the 1995 round, DoD internal auditors played a
                            key role in validating information concerning the installations and
                            facilities under review. Although another such effort would require
                            considerable audit resources and therefore probably impact coverage of
                            other high risk areas, the IG, DoD, strongly advocates an active audit
                            role. In addition, the DoD needs to implement recent IG, DoD, recom-
                            mendations to ensure more effective tracking of the costs and savings
                            actually experienced after approved closures and realignments.

INFORMATION             The DoD uses about 28,000 information systems and spends roughly $14
TECHNOLOGY              billion annually on their development, modification and upkeep. The
MANAGEMENT              major challenges in this area relate primarily to system development,
                        management and oversight, information assurance and the Year 2000
                                             pr ob le m . D ur i ng the r e por t i ng p er i o d , 5 5
 “The Y2K problem has been the top           information technology related audit reports were
 discretionary internal DoD audit priority issued, most of which addressed Year 2000
 in fiscal years 1998 and 1999.”             Conversion issues.

                            The Y2K problem has been the top discretionary internal DoD audit
                            priority in fiscal years 1998 and 1999. Some DoD components have also
                            mobilized their inspection assets to help monitor and facilitate progress;
                            for example, virtually all Naval Inspector General resources were
                            committed to Y2K coverage during the period of this report.

                            In December 1998, we issued a summary of 142 DoD audit and
                            inspection reports issued as of that date on Year 2000 Conversion. These
                            reports supported the Secretary of Defense assertion in August 1998 that
                            progress up to that point had been insufficient. The most troubling

                                                   5
Chapter One                                                     Semiannual Report to the Congress




                       shortfalls identified by audits and inspections related to inaccurate
                       reporting of system status; inadequate contingency planning; lack of
                       focus on Y2K compliance of mainframe platform domains; continued
                       lack of management awareness and emphasis; and very little outreach to
                       determine the status of allies, suppliers and data exchange partners.

                       In March 1999, we provided a second summary covering 43 reports
                       issued between October 1998 and February 1999. In addition, on
                       March 2, 1999, the Assistant Inspector General for Auditing testified at a
                       joint hearing held by the House Subcommittees on Technology and
                       Government Management Information and Technology. The second
                       summary report and testimony agreed with the Department’s reports of
                       accelerated action and significant progress made during the first half of
                       fiscal year 1999. As of February 1999, 72 percent of DoD mission critical
                       systems were reported as Y2K compliant. Although the status reports are
                       still not totally accurate, they are significantly improved, and remaining
                       problems do not materially affect the portrayal of overall DoD status. By
                       late 1998, senior managers and commanders in all functional areas and in
                       the combatant commands were much more actively engaged in the
                       conversion program and multi-system testing of unprecedented scope
                       was scheduled.

                       The IG, DoD, is confident that, with continued intensive management
                       through calendar year 1999, the DoD will not suffer system failures
                       significant enough to impair critical mission performance. Pending the
                       results of additional testing, it is premature to declare success. Likewise,
                       due to belated starts and initially slow progress, much work needs to be
                       done to address risk related to the remaining noncompliant systems, host
                       nation support, supplier outreach and mainframe computer compliance.
                       Much of our continued coverage will be on those risk areas, and we will
                       closely monitor testing to ensure that it is sufficiently robust and well
                       executed.

                                              T he neces sari l y heavy em phasi s on Y2K
 “The...emphasis on Y2K Program               Program oversight has exacerbated the shortfall
 oversight has exacerbated the shortfall      in audit coverage of other important information
 in audit coverage...especially the many      technology issues, especially the many hundred
 hundred system development and               system development and modernization efforts.
 modernization efforts.”                      We agree with GAO assessments that manage-
                                              ment controls in this area need strengthening, so
                       that sound investment decisions are made and interoperability is ensured.
                       We are concerned that virtually every system audit indicates problems,
                       such as the lack of sound cost, schedule and performance baselines or

                                             6
Semiannual Report to the Congress                                                    Chapter One




                            ambiguous milestone exit criteria. During the period, for example,
                            auditors reported similar problems for the Composite Health Care
                            System II. To establish a more effective management framework, we
                            support the concept of the new Information Technology Investment
                            Portfolio oversight approach, which the Department plans to validate
                            through pilot programs this year.

                        Protecting DoD automated systems against intrusion by hackers and
                                           other security threats remains a significant concern.
 “Protecting DoD automated systems During the period, we continued to identify lax
 against intrusion by hackers and          security controls and practices. In a December 1998
 other security threats remains a          summary of 75 information assurance audit reports
 significant concern.”                     issued since 1995, we identified specific deficiencies
                        found in systems supporting all DoD functions. The most frequent
                        finding, which was made in 59 reports, was failure to implement basic
                        access controls. As discussed in Chapter Two, efforts also continued to
                        augment the DoD criminal investigative capability to ensure prompt and
                        effective reaction to computer system intrusions.




                                                7
Chapter One                                    Semiannual Report to the Congress




              This page left blank intentionally




                            8
Semiannual Report to the Congress                 Special Emphasis Area--Chemical and Biological Defense




CHEMICAL AND BIOLOGICAL DEFENSE

CHEMICAL AND             With the demise of the Soviet Union and Warsaw Pact, the United States
BIOLOGICAL               stands as the world’s only superpower, and it is expected to remain so
THREAT                   through at least 2015. However, this in no way portends that the United
                         States will not face significant security challenges during this period. The
                         U.S. dominance in the conventional military arena may encourage
                         potential adversaries to use “asymmetrical” means to attack our forces
                                                      a nd i nt er e s t s . F or e m o st am o n g t he s e
 “The proliferation of CB warfare capabilities asymmetrical means is the chemical and
 has significantly increased the probability          biological (CB) warfare threat.
 that U.S. forces will face chemical or
 biological agent attack in a future conflict.” The proliferation of CB warfare capabilities
                                                      has significantly increased the probability
                                                      t hat U.S . for ces wil l face chemi cal or
                         biological agent attack in a future conflict. Therefore, the DoD must
                         prepare to confront this threat by ensuring that our forces are prepared to
                         defend against a CB attack, quickly recover from the attack and continue
                         mission-critical operations. Defending successfully against CB weapons
                         requires that U.S. forces have equipment to protect them from the effects
                         of these weapons and that they be properly trained in the use of the
                         equipment in an operational environment. Over the past 5 years, the OIG,
                         DoD, has issued 9 audit reports on CB defense.

PROTECTIVE MASKS Three OIG, DoD, reports addressed protective masks and related
                 equipment. Two classified audit reports were issued in response to an
                 allegation to the DoD Hotline regarding problems with currently fielded
                 protective masks, design and production deficiencies with replacement
                                  masks and inspection schedules that allowed warranties
                                          to expire before deficiencies were identified.
                                               The allegations were substantiated, and
                                                  other problems were identified. Most of
                                                     the issues were addressed through
                                                      corrective action, but it was agreed
                                                       that a Joint Service Mask Technical
                                                       Working Group would provid e
                                                       further analys is , including a
                                                      determination on whether the M41
                                                    Protection Assessment Test System
                                                  (PATS) was adequate for testing the fit
                                              of a mask in a static environment and its
                                         integrity under realistic operating conditions.

                                                    9
Special Emphasis Area--Chemical and Biological Defense               Semiannual Report to the Congress




                            Despite the commendable efforts of the Working Group, the capabilities
                            of the M41 PATS remained an open issue and a follow-on audit was
                            performed. In December 1998, we reported that the M41 PATS did not
                            test to operational conditions; the fit-factor criteria used by the Army
                            may be insufficiently rigorous; the test equipment was not kept in proper
                            calibration, which could result in erroneous test feedback; and users of
                            the M41 PATS were insufficiently trained. The Assistant to the Secretary
                            of Defense (Nuclear and Chemical and Biological Defense Programs)
                            agreed with the report. At the close of the reporting period, good progress
                            was being made in resolving open issues with the Army.

WEAPON SYSTEMS              Crew protection and system operability in a contaminated environment
                            need to be considered during system design and also when planning
                            maintenance or decontamination procedures. Two OIG, DoD, audits
                            indicated that this was not consistently done. For example, the need for
                            an air cooling unit for the Bradley Fighting Vehicle, to enable the crew to
                            function well while wearing full protective gear, was not properly
                            considered. Also, additional measures were needed to improve CB
                            survivability of the Patriot Advanced Capability-3 System. Management
                            agreed to reemphasize CB defense at acquisition milestones.

TRAINING               At 187 of 232 military units reviewed by the OIG, DoD, commanders in
                       all Services were not fully integrating CB defense into unit mission
                       training. Navy ships were the exception; in those units, well-integrated
                                   training was common. Unrealistic training was caused by
 “...commanders...were not fully lack of command emphasis, noncompliance with policy and
 integrating CB defense into unit excessive concern about the difficulties introduced into
 mission training.”                exercises by CB warfare scenarios. In addition, unit-level
                                   CB readiness assessment and reporting was inadequate.
                       Based on a 1992 OIG, DoD, report, the Joint Staff requires unit-level CB
                       readiness reporting in the Global Status of Resources and Training
                       System. Most units were not considering the adequacy of CB training
                       when reporting readiness status. Management agreed with 13
                       recommendations and is taking corrective action.

CLASSIFIED                  Overall assessments of CB warfare readiness and discussions of specific
FINDINGS                    deficiencies are addressed in classified audit reports that are available to
                            individuals with appropriate security clearances and need to know. The
                            most significant of these reports are OIG, DoD, No. 99-102, Chemical
                            and Biological Warfare Defense Resources in the U.S. European
                            Theater, March 4, 1999, and No. 99-045, Chemical and Biological
                            Warfare Defense Resources in the U.S. Pacific Command, December 3,
                            1998.

                                                  10
Semiannual Report to the Congress              Special Emphasis Area--Chemical and Biological Defense




                            In summary, CB defense is a crucial aspect of overall military capability.
                            We will follow up to ensure completion of the several dozen agreed-upon
                            recommendations from the reports mentioned above. No additional audit
                            coverage is planned for the near future, but the Pacific Air Force IG
                            expanded the inspection criteria for Combat Employment Readiness
                            Inspections for trial use in Korea in April 1999. The criteria include
                            enhancements suggested by the Aerial Port of Debarkation Study
                            performed by the Defense Threat Reduction Agency and may have wider
                            applicability.




                                                 11
Special Emphasis Area--Chemical and Biological Defense               Semiannual Report to the Congress




                                     This page left blank intentionally




                                                  12
Semiannual Report to the Congress                 Special Emphasis Area--Bribery, Kickbacks and Corruption




BRIBERY, KICKBACKS AND CORRUPTION IN DOD
PROGRAMS AND OPERATIONS

                       Corruption within the procurement arena undermines the entire
                       procurement process and jeopardizes the health and safety of our combat
                       troops, as well as those who support them. It costs the American taxpayer
                                                millions of dollars and erodes the trust and
 “Corruption within the procurement             confidence of the public when these criminal
 arena undermines the...procurement             a ct i v it i es oc cu r. Co r ru p t i o n , i n te rm s o f
 process and jeopardizes the health and gratuities, bribes and kickbacks, is a serious
 safety of our combat troops....”               crime and a major impediment to the proper
                                                administration of the DoD procurement process.
                       These crimes add to the costs of procuring weapon systems, spare parts
                       and supplies, and result in funds not being available for other necessary
                       equipment. They also lead the public to question the integrity of the
                       procurement process and those who administer it. As a result, the OIG,
                       DoD, places a high priority on investigating allegations of corruption
                       within the Department and, along with the Department of Justice (DOJ),
                       acknowledges the significance of prosecuting such cases. The continued
                       pursuit of corruption cases is essential not only to deter such activity, but
                       as a means to control costs and thus restore the public's confidence in the
                       integrity of the procurement system.

                             Kickbacks and bribery have been identified in all types of fraud investi-
                             gations within the DoD, including major thefts of Government property,
                             product substitution, health care, procurement, research and development
                             and property disposal.

                             The investigation of the Wedtech Corporation in the 1980s still remains
                             one of the most egregious examples of public corruption involving a
                             DoD contractor. The investigation uncovered a multitude of high level
                             corporate and Government officials who committed a myriad of Federal
                             violations including racketeering, bribery, public corruption, kickbacks
                             and stock fraud. Wedtech officials used lobbyists, national politicians,
                             Federal employees and military personnel to assist the company, which
                             started as a small machine shop in the South Bronx, in receiving over
                             $250 million in military contracts, many of which were Small Business
                             Administration (SBA) Small and/or Minority Business Set Aside 8(a)
                             contracts. The investigation resulted in 18 indictments and convictions,
                             4 guilty pleas to criminal informations and over $3.4 million in criminal
                             and civil fines and penalties. The investigation also led to Congressional


                                                    13
 Special Emphasis Area--Bribery, Kickbacks and Corruption             Semiannual Report to the Congress




                            hearings regarding the improper activities relative to the award of DoD
                            contracts, specifically focusing on the SBA 8(a) Program.

INVESTIGATIVE               The DCIS and the military criminal investigative organizations conduct
RESPONSIBILITIES            investigations of suspected criminal violations affecting DoD resources
                            and programs. These investigations involve contract and procurement
                            fraud, antitrust violations, bribery, corruption, large-scale thefts of
                            Government property and health care fraud. The DCIS, as the investiga-
                            tive arm of the OIG, DoD, has primary jurisdictional responsibility for
                            the investigation of allegations of kickbacks or bribery involving civilian
                            employees of the Office of the Secretary of Defense, the Joint Chiefs of
                            Staff and the Defense Agencies and their field activities, and is the OIG,
                            DoD, representative for receiving all statutorily required notifications
                            from contractors of suspected violations of the Anti-Kickback Act of
                            1986. The Department's investigative agencies work jointly with other
                            Federal investigative organizations, including the Federal Bureau of
                            Investigation (FBI) and the Internal Revenue Service (IRS).

CONGRESSIONAL               In late 1985, the Senate Subcommittee on Oversight of Government
SUPPORT                     Management initiated an investigation into the issue of subcontractor
                            kickbacks in the Defense industry and the adequacy of the existing Anti-
                            Kickback Act to handle the problem. As a result of this investigation,
                            Congressional hearings were held in 1985 and 1986.

                            Subcontractor kickbacks have been condemned for distorting and
                            weakening the Federal procurement system. Kickbacks destroy true
                            competition for Government subcontractors, cause honest subcontractors
                            to lose work and inflate the product prices charged to the DoD and paid
                            for by the American taxpayer. Kickbacks foster corruption throughout
                            the Federal procurement system by creating an environment in which
                            unethical conduct is tolerated.

                            The goal of the Anti-Kickback Act of 1986 was to close the loophole and
                            broaden the coverage of the Anti-Kickback Act to deter kickbacks
                            relating to subcontracts under Federal Government contracts. Since the
                            passage of the Act, the number of subcontractor kickback investigations
                            in the DCIS inventory has increased dramatically. The initiation of this
                            type of case and the use of multiagency, multidisciplined task forces have
                            resulted in exposure of bribery and kickbacks in DoD procurements,
                            programs and activities. The use of informants, as well as polygraph
                            examination and undercover operations, have been particularly success-
                            ful in these cases and have uncovered culpable DoD and contractor
                            employees.

                                                    14
Semiannual Report to the Congress                Special Emphasis Area--Bribery, Kickbacks and Corruption




                            Undercover operations have proven to be an effective investigative tool.
                            Those operations have involved product substitution, including critical
                            aircraft and weapon system parts, military health care under the Civilian
                            Health and Medical Program of the Uniformed Services (CHAMPUS),
                            now referred to as TRICARE, fraudulent worker's compensation claims,
                            large scale theft of Government property, illegal export of military
                            technology and equipment, kickbacks and bribery.

FRAUD AWARENESS             The DCIS and the military criminal investigative organizations conduct
TRAINING                    fraud awareness training for DoD employees and contractors throughout
                            the country. They also maintain close coordination and communicate
                            regularly on matters of mutual interest with the DoD procurement centers
                            and the major DoD contractors within their geographical areas of
                            responsibility.

CASE EXAMPLES               The following are examples of recent criminal, civil and administrative
                            outcomes during this semiannual period relative to bribery, kickbacks
                            and corruption involving DoD programs and operations.

                                    •   The former president and another executive of a New York
                                        based contractor pled guilty to paying kickbacks to their
                                        customers in return for the bid information they needed to be
                                        awarded DoD contracts. The former president was already
                                        serving a Federal sentence for conspiracy to making kickback
                                        payments, bankruptcy fraud and defrauding the IRS. Three
                                        additional individuals involved in this case were also sentenced.
                                        This ongoing joint DCIS-IRS investigation has resulted in 23
                                        indictments, 19 convictions and criminal and civil fines and
                                        penalties totaling over $114,000.

                                    •   A former port engineer for a Military Sealift Command (MSC)
                                        contractor pled guilty to soliciting and receiving an unlawful
                                        gratuity. As part of a national DCIS, FBI and Naval Criminal
                                        Investigative Service (NCIS) undercover initiative into
                                        allegations of fraud and the payment of kickbacks and bribes in
                                        the maritime industry, Federal law enforcement agencies set up
                                        a fictitious ship management and repair company with offices
                                        in five port cities that openly sought the award of Government
                                        contracts to repair Government-owned vessels. The former
                                        contract port engineer oversaw the maintenance and operation
                                        of an MSC vessel in Norfolk, Virginia. Also sentenced as a
                                        result of this undercover investigation was a former GS-15 ship
                                        operations and maintenance officer with the Department of

                                                    15
Special Emphasis Area--Bribery, Kickbacks and Corruption                  Semiannual Report to the Congress




                                       Transportation, Maritime Administration, who previously pled
                                       guilty to soliciting and receiving a gratuity.

                                   •   An undercover operation, code name "Operation Overdraw,"
                                       established a medical business that dealt with dozens of health
                                       care related companies in Connecticut, New York and New
                                       Jersey suspected of engaging in fraudulent activities. As a result
                                       of this investigation, guilty pleas were entered by three medical
                                       supply company executives and the former director of internal
                                       medicine for a community health center, who received
                                                               approximately $78,130 in kickbacks. To
                                                               date, this joint DCIS, IRS, FBI, and
                                                               Health and Human Services investigation
                                                               has resulted in 15 arrests, 27 indictments
                                                               and 15 convictions.

                                                           •   A former GM-14 supervisory general
                                                               engineer at the Norfolk Naval Shipyard
                                                               p l ed g u i l t y a f t e r an i n ve s t i g a t i o n
                                                               disclosed that he secretly provided a
                                                               contractor the complete Government
                                                               estimate of construction costs on three
                                                               contracts valued at $1,035,988, for which
                                                               the Government had solicited bids. This
                                                               investigation was conducted jointly by
                                                               the DCIS, FBI and NCIS.

     Aerial view of the Norfolk Naval Shipyard
                                                           •  A former vice president of sales for a
                                                              medical products company pled guilty to
                                                              paying kickbacks and rebates to induce
                                       the referral of laboratory services. The value of the rebates and
                                       kickbacks paid to eight different facilities exceeded $2 million.

                                   •   The owners of a Pennsylvania wholesale meat distribution
                                       company pled guilty as a result of an investigation that
                                       determined the company was involved in several illicit schemes
                                       that included bribery of public officials, kickback payments to
                                       commercial customers and mislabeling of meat products. In a
                                       civil settlement, they agreed to pay a total of $450,000 in
                                       restitution. As a result of this investigation, eight additional
                                       contractor and Government employees pled guilty or were
                                       sentenced during this semiannual reporting period. This
                                       ongoing joint DCIS, IRS and FBI investigation has resulted in

                                                   16
Semiannual Report to the Congress                Special Emphasis Area--Bribery, Kickbacks and Corruption




                                                                   28 indictments, 14 convictions and
                                                                   over $700,000 in criminal and civil
                                                                   fines and penalties.

                                                               •
                                                               A former company president and the
                                                               company that managed the
                                                                acquisition and refurbishment of
                                                                aircraft maintenance supplies for
                                                                resale to the Government of Brazil,
                                                                w as sent en ce d for i m p ro p er l y
                                                                paying a U.S. Government
         Photo courtesy of Defense Commissary Agency,           employee to assist in establishing
               Public Affairs Department                        hi s business and violating t he
                                                                Foreign Corrupt Practices Act. A
                                      former U.S. Air Force employee who was also involved in this
                                      scheme was convicted of accepting a gratuity.

                                    •   A former Army employee pled guilty and was sentenced for
                                        accepting cash and machinery from a contractor in exchange for
                                        placing orders with the contractor. This investigation disclosed
                                        that some of the hardware products sold by the contractor to the
                                        DoD, destined for use in critical applications on submarines,
                                        nuclear reactors and aircraft, were made of unapproved and
                                        substandard materials not suitable for their intended use. The
                                        parts were located and removed from DoD inventories. In
                                        related cases, three Government employees were sentenced
                                        during this semiannual reporting period for similar offenses.
                                        This joint DCIS, Veterans Affairs and Postal Inspection Service
                                        investigation resulted in 8 indictments and 7 convictions.

SUMMARY                     The procurement arena is highly vulnerable to public corruption because
                            of the sheer volume of contracts awarded and significant procurement
                            dollars expended daily to support the combat readiness of our Armed
                            Forces. This requires a strong management commitment to identify and
                            address potential problems. Congressional support is essential in making
                            necessary legal changes when problems or vulnerabilities are identified
                            that are pervasive to the procurement system. As a result, DoD investi-
                            gative and audit resources will continue to focus in this area to
                            aggressively investigate and refer for prosecution public corruption cases
                            impacting DoD programs and operations.




                                                    17
Special Emphasis Area--Bribery, Kickbacks and Corruption              Semiannual Report to the Congress




                                     This page left blank intentionally




                                                   18
Semiannual Report to the Congress                                                          Chapter Two




CHAPTER TWO - SIGNIFICANT ACTIVITIES

INTRODUCTION                This chapter summarizes the significant activities of the OIG, DoD,
                            components and their work with other members of the DoD oversight
                            community.

CRIMINAL                    The four Defense Criminal Investigative Organizations (DCIOs)
INVESTIGATIONS              continue to combat crime affect ing the DoD and the Milit ary
                            Departments. The DCIS, the criminal investigative arm of the OIG, DoD,
                            focuses the bulk of its 331 civilian criminal investigators on the
                            investigation of procurement fraud by Defense contractors and health
                            care fraud by health care providers. The three Military Department
                            criminal investigative organizations, the Army Criminal Investigation
                            Command (CIDC), the NCIS and the Air Force Office of Special
                            Investigations (AFOSI), also investigate procurement fraud, but focus the
                            majority of their resources on other crimes against persons and property
                            affecting their respective Military Departments. The AFOSI and NCIS
                            also conduct counterintelligence investigations and operations. This
                            section focuses on the procurement, health care and other major fraud
                            investigations accomplished by the DCIOs.

 Procurement and            Figure 1 (page 20) displays the investigative results achieved by the four
 Health Care Fraud          organizations during the period in the areas of procurement fraud and
 Investigative              health care provider fraud.
 Results

 Examples of Major          The following are examples of some of the more significant fraud cases
 Procurement Fraud          investigated during this semiannual period. It should be noted that in
                            virtually all instances, the DCAA played a critical role in supplying
                            needed audit support.

                                    •   Five employees of International Signal and Control Company
                                        (ISC), Lancaster, Pennsylvania, were given the following
                                        sentences for conspiracy and other counts, such as tax evasion,
                                        wire fraud and Arms Export Control Act violations:

                                        » Lawrence Resch, former ISC business consultant, 3 months
                                          incarceration, 3 years supervised probation including 3
                                          months home detention, $10,000 restitution.




                                                   19
Chapter Two                                                                                Semiannual Report to the Congress




                                PROCUREMENT FRAUD AND HEALTH CARE PROVIDER FRAUD
                                           INVESTIGATIVE CASE RESULTS
                                              DCIS          CIDC             NCIS         AFOSI         Joint DCIO           Total
Litigation Results - DOJ Only
Indictments                                    96            5                 8            2              25                136
Convictions                                    58            6                 3            0              12                 79
Civil Settlements/Judgments                    26            0                 6            2              23                 57
Monetary Outcomes
Do Only                                    $11,928,732      $588,562        $3,977,657   $8,442,892     $27,689,990    $52,627,833
                                   1
DoD Administrative Recoveries                 1,987,766      120,055                0       60,576        6,242,000          8,410,397
                           2
Investigative Recoveries                              0             0          68,558           4,251            0             72,809
Total                                      $13,916,498      $708,617        $4,046,215   $8,507,719     $33,931,990     $61,111,039

1Includes
            the results of military courts-martial.
2
 Includes Government properties seized or otherwise recovered during investigations. Those properties may include items
 previously transferred to a Defense Reutilization and Marketing Office. Government property recovered by investigation is
 valued at its original acquisition price, which may exceed the current fair market value.

                                                                 Figure 1


                                                      »   Anthony Stagg, former ISC international sales and program
                                                          manager, 3 years probation including 3 months home
                                                          detention, $16,000 restitution.

                                                      »   Robert Shireman, former ISC financial officer, 3 years
                                                          probation including 3 months home detention and a $7,550
                                                          fine and assessment.

                                                      »   Wayne Radcliff, former ISC vice president of
                                                          manufacturing, 3 years probation including 6 months home
                                                          detention and a $7,650 fine and assessment.

                                                      »   Gerald Schuler, former ISC freight forwarder, 3 months
                                                          incarceration, 3 years supervised probation including 3
                                                          months home detention and a $3,550 fine and assessment.

                                                •     The ISC engaged in the design, manufacture and sale of
                                                      medium to high technology electronic military equipment for
                                                      the DoD and commercial businesses. Resch and Shireman
                                                      fraudulently inflated the sales, costs and profits of ISC to secure


                                                                    20
Semiannual Report to the Congress                                                         Chapter Two




                                        financing and investors. Stagg was involved in evading the
                                        United Nations arms embargo against South Africa by selling
                                        and smuggling U.S.-made arms, munitions and weapons
                                        technology to Armscor, a South African corporation established
                                        to meet the armament needs of South Africa. Radcliffe and
                                        Schuler were involved in coordinating and illegally shipping
                                        various military and commercial components to South Africa,
                                        in violation of the Arms Export Control Act. (DCIS/FBI/IRS/
                                        U.S. Customs Service [USCS])

                                    •
                                  A $450,000 civil settlement was reached between the
                                  Government and Bell Helicopter Textron, Incorporated (BHTI),
                                                     resulting from allegations that, between 1989
 “The suit alleged the company                       and 1994, BHTI used substandard, non-
 installed nonconforming parts on                    co n fo rm i n g an d f als ely cert i fi ed r aw
 military aircraft and falsely certified             materials in its manufacturing of Navy
 inspection checklists for military and              aircraft. (DCIS/NCIS/CIDC)
 civilian aircraft.”
                                                 • As the result of an investigation in
                                  connection with a Qui Tam suit, a $500,000 civil settlement
                                  was reached between the Government and Northrop Grumman
                                  Corporation. The suit alleged the company installed noncon-
                                  forming parts on military aircraft and falsely certified
                                  inspection checklists for military and civilian aircraft. (NCIS)

                                    •
                                 A $3.5 million civil settlement was reached between the
                                 Government and Packard Bell Electronics, Incorporated, in
                                 connection with a Qui Tam suit. The suit alleged the company
                                 had a general practice of disassembling computers returned by
                                 retail customers, repainting and refurbishing parts, then putting
                                 them into computers as new parts. Refurbished parts included
                                                       power supplies, floppy disk drives and
                                                       the computer chassis. The company
 “A $3.5 million civil settlement was                  allegedly sold computers containing
 reached between the Government and                    refurbished parts to the Army-Air Force
 Packard Bell Electronics, Incorporated,               and Navy Exchange Services, certifying
 in connection with a Qui Tam suit.”                   they were “new.” (AFOSI/NCIS)

                                    •   As the result of an investigation in connection with a Qui Tam
                                        suit, a $2.4 million civil settlement was reached between the
                                        Government and Teledyne Electronics Systems Company. The
                                        suit alleged the company had intentionally understated manu-
                                        facturing test hour data submitted to the Government in
                                                   21
Chapter Two                                                       Semiannual Report to the Congress




                                   connection with a settlement arising out of a prior investigation
                                   involving the Identification Friend or Foe procurement
                                   program. (AFOSI)

                               •   A $300,000 civil settlement was reached between the
                                   Government and Garjak Research, Incorporated, and Garjak
                                   International, Incorporated. The contractor allegedly knowingly
                                   made falsely inflated labor cost claims in connection with the
                                   development of a computer simulation program. The program,
                                   known as the Combat Base Assessment Module, was contracted
                                   for by the U.S. Air Force, while the contractor also held
                                   contracts with the Defense Nuclear Agency. (DCIS/AFOSI/
                                   IRS)

                               •   An investigation of a Qui Tam complaint made by a former
                                   employee of Hercules, Incorporated (HI), of alleged cost
                                   mischarging and false claims on DoD contracts led to a civil
                                   settlement of $1.1 million by HI and Alliant Techsystems,
                                   Incorporated (ATS). HI was purchased by ATS after the initia-
                                   tion of the investigation. ATS manufactures rocket motors for
                                   the DoD and performs work on DoD missile and rocket
                                   programs. (DCIS/NCIS)

                               •  Lockheed Martin Tactical Aircraft Systems (LMTAS) agreed to
                                  an administrative settlement of $2 million. The agreement
                                  resolves all allegations of defective pricing and noncompliance
                                  with cost and pricing standards on DoD contracts. The settle-
                                  ment was a result of an investigation into allegations of over-
                                  billing to the Government by General Dynamics Fort Worth
                                  Division (GDFW) and LMTAS. Specifically, it was alleged that
                                  for 3 months before its sale to LMTAS, GDFW continually
                                  overbilled on Government contracts to maintain a certain cash
                                  flow position until the sale was consummated. (DCIS/DOJ/
                                                           NCIS/AFOSI/DCAA)
 “The Clark Equipment Company...paid a
 $3 million civil settlement to resolve                • The Clark Equipment Company (Clark)
 issues brought in a Qui Tam complaint.”                   of S out h Bend, Indi ana, a wh ol ly
                                                           owned subsidiary of Ingersoll-Rand
                                  Company, Woodcliff, New Jersey, paid a $3 million civil
                                  settlement to resolve issues brought in a Qui Tam complaint.
                                  The Government received $2.4 million of the settlement. Clark
                                  allegedly failed to disclose correct, accurate and complete
                                  discount scheduling and marketing data information to the

                                               22
Semiannual Report to the Congress                                                                        Chapter Two




                                                          Government. Clark allegedly defrauded the
                                                          General Services Administration and its
                                                          customers, including the Defense Logistics
                                                          Agency, by concealing the cost and pricing
                                                          data that would have resulted in lower prices
                                                          for equipment purchased from Clark. (DCIS)

                                                    •Textron, Incorporated, and the Aerostructures
                                                     Corporation, formerly Textron Aerostructures
                                                     (TA), entered into a $9.8 million civil settle-
                                                     ment agreement with the Government. The
              B1-B Bomber
                                                     a gr e e m e n t , p r e v i o u s l y s ea l e d , s e t t l e s
                                    allegations of fraud in the construction of wings for the Air
                                    Force B1-B bomber. The Federal lawsuit alleged that TA, a
                                    former Textron subsidiary in Nashville, Tennessee, defrauded
                                    the Government by inflating labor costs in its proposals for two
                                    subcontracts for the production of 82 wing sets for the B1-B
                                    bomber. The TA is alleged to have fraudulently withheld
                                    information from negotiators regarding significant reductions in
                                    projected labor costs for the production of the wings. The settle-
                                    ment was the result of a Qui Tam suit filed under the Civil False
                                    Claims Act by a retired TA employee. The relator in this case
                                    will receive more than $1.7 million from the proceeds of the
                                    Government's recovery. (DCIS/AFOSI/DCAA)

                               •    Thomas Kardos, former president of Broomer Research
                                    Corporation (Broomer), Islip, New York, a DoD contractor for
                                    the manufacture of optical equipment, and Broomer, were
                                    sentenced on charges relating to the illegal handling of
                                    hazardous waste. Kardos was sentenced to 4 months incarcera-
                                    tion, 3 years probation including 4 months home detention
                                    (with electronic monitoring), and a $10,200 fine and assess-
                                    ment. Broomer was sentenced to 3 years probation and a
                                    $100,400 fine and assessment. Kardos and others were respon-
                                    sible for the illegal dumping of chemical waste resulting from
                                    the production process used to coat optical lenses. In addition to
                                    any punishment imposed by the court, Broomer agreed to pay
                                    for the cleanup of the property. Additionally, Kardos agreed to
                                    cease working for, or receive compensation from, any company
                                    engaged in the business of optical manufacturing and coating if
                                    such work involves, directly or indirectly, a contract or assign-
                                    ment of the Government or any agency of the Government for a



                                                     23
Chapter Two                                                        Semiannual Report to the Congress




                                    period of 3 years. (DCIS/FBI/Environmental Protection
                                    Agency/NCIS)

                                •The Hunt Building Corporation (Hunt) of El Paso, Texas,
                                 reportedly the largest builder of military family housing in the
                                 United States, paid an $8 million civil settlement to resolve
                                 false claims issues in its design, construction and lease to the
                                 Air Force of 828 housing units constructed at Ellsworth Air
                                 For ce Base, S outh Dakot a. Hunt al so agreed to m ake
                                 comprehensive repairs to the units and provide the Government
                                                    with a performance bond in the amount of
 “The Hunt Building Corporation...                  $18.5 million to protect the Government in
 paid an $8 million civil settlement to             the event Hunt does not repair or fails to
 resolve false claims issues....”                   complete the repairs as agreed. The structural
                                                    and design defects include violations of the
                                 fire safety requirements, flawed heating systems and improper
                                 design and construction that caused the units to twist and break
                                 apart in the high, sustained winds in western South Dakota. In
                                 some units, pipes were simply inserted into the ground to make
                                 it look like mandatory sewer clean-outs had been installed and
                                 in other units improperly vented plumbing caused sewer gases
                                 to back up. The Government attributed part of the problem to
                                 the hasty construction of the units. The contract allowed for
                                 1,440 days of construction, but the buildings were completed in
                                 less than 500 days. (DCIS/AFOSI)

                                •   As the result of an investigation in connection with a Qui Tam
                                    suit, a $325,000 civil settlement was reached between the
                                    Government and SUNDCORP. The suit alleged SUNDCORP
                                    built 300 housing units in Guam that were not in compliance
                                    with construction contract specifications. As a result, all of the
                                    units had excessive and substantial construction defects. (NCIS)

                                •   Mission Research Corporation (MRC) of Albuquerque, New
                                    Mexico, agreed to pay $500,000 in a civil settlement to resolve
                                    issues relating to alleged inappropriate lease costs charged to
                                    the Government. This investigation was based on information
                                    received from the DCAA during an audit of lease costs incurred
                                    by MRC. The MRC performed DoD research related to electro-
                                    magnetic pulse, nuclear efforts and plasma sciences. (DCIS/
                                    DCAA)




                                                24
Semiannual Report to the Congress                                                          Chapter Two




 Examples of Health                 •   Dr. James E. McClendon, a psychiatrist from Atlanta, Georgia,
 Care Fraud                             was sentenced to 78 months incarceration and ordered to pay
                                        restit uti on of $6.7 mil lion f or conspir acy and mo ney
                                        laundering. He was also sentenced to 3 years probation after
                                        release from incarceration. From approximately January 1994
                                        through July 1995, McClendon billed Medicare and TRICARE,
                                        formerly the CHAMPUS, for psychotherapy visits, when he
                                        was actually operating after-school programs for children in
                                        impoverished areas. Claims submitted to TRICARE were billed
                                        through the Medicaid program. (DCIS/FBI)

                                    •   Investigation of a Qui Tam complaint resulted in a $4.5 million
                                        civil settlement by Quantum Health Resources, Incorporated
                                        (Quantum), of Riverside, California. The settlement was
                                        divided among the Government, the states of New York and
                                        Oklahoma and the relator, with the Government receiving $2.8
                                        million. The relator, a former Quantum employee, alleged that
                                        Quantum, a supplier of therapies for hemophiliacs and other
                                        persons suffering from chronic disorders, intentionally
                                        overbilled the Government through Medicare, Medicaid, Medi-
                                        Cal and TRICARE. Quantum allegedly used inflated acquisi-
                                        tion costs for the purpose of billing and was reimbursed by the
                                        Government for more than it was entitled to receive. (DCIS)

 Suspensions and            The number of contractors and individuals suspended and debarred as a
 Debarments                 result of DoD criminal investigations are shown in Figure 2 (page 26).
 Resulting from
 Investigations




                                                   25
Chapter Two                                                         Semiannual Report to the Congress




                   SUSPENSIONS AND DEBARMENTS RESULTING FROM INVESTIGATIONS
                                         Defense Criminal Investigative Organization (DCIO)
                                                                                    Joint
                                 DCIS         CIDC         NCIS        AFOSI        DCIO      Total
 DoD CONTRACTOR ACTIONS
 Suspensions
     Companies                    14            0           2            0          11        27
     Individuals                  30            0          11            2          25        68
         Total                    44            0          13            2          36        95
 Debarments
     Companies                     9            5           4            0           8        26
     Individuals                   9            9          10            4          13        45
         Total                    18           14          14            4          21        71
                                              Figure 2


 Other Criminal            In addition to the matters listed above, the DCIOs conducted various
 Investigative             other significant investigations involving large-scale thefts and non-
 Results                   procurement related fraud. The results of these investigations are
                           presented in Figure 3, page 27. As in previous reports, the statistics
                           shown in the table do not include general crime investigations (other than
                           large-scale thefts) or counterintelligence activities.




                                                26
Semiannual Report to the Congress                                                                                        Chapter Two




                                      .

                                          OTHER CRIMINAL INVESTIGATIVE RESULTS
                                                                                    Totals for Period
                                                            DOJ                 State/Local/Foreign                    Total
LITIGATION RESULTS
Indictments
      DCIS                                                     51                            10                           61
     CIDC                                                      11                            14                           25
      NCIS                                                     37                            29                           66
      AFOSI                                                    12                             1                           13
      Joint DCIO                                               15                             9                           24
              Total                                           126                            63                          189
Convictions
      DCIS                                                     30                             9                           39
      CIDC                                                     14                            14                           28
      NCIS                                                     36                            29                           65
     AFOSI                                                     18                             7                           25
      Joint DCIO                                               18                             1                           19
              Total                                           116                            60                          176




                                                                                                          State/
                                                                                                          Local/
                                                         DOJ                        DoD                  Foreign                Total
MONETARY OUTCOMES                                                                       1            2

       DCIS                                            $2,506,118             $71,267       $4,544,297   $1,632,438            $8,754,120
       CIDC                                               145,391             571,107        1,020,599    1,089,928             2,827,025
       NCIS                                               915,364           1,082,016         753,520      141,344              2,892,244
       OSI                                                459,117             147,632         203,133       75,074               884,956
       Joint DCIO                                       8,428,442           8,005,326        3,271,326             0           19,705,094
               Total                                  $12,454,432          $9,877,348       $9,792,875   $2,938,784       $35,063,439
1Administrative
                  settlements and recoveries, and results of military courts-martial.
2Investigative seizures and
                             recoveries. Includes Government properties seized or otherwise recovered during investigations and
 may include items previously transferred to a Defense Reutilization and Marketing Office. Government property recovered by
 investigation is valued at its original acquisition price, which may exceed the current fair market value.

                                                                Figure 3




                                                                    27
Chapter Two                                                Semiannual Report to the Congress




 Examples of Other
 Criminal
 Investigations

  Theft                •   An investigation was initiated regarding the alleged diversion
                           of military equipment by military museums. Inspectors from the
                           U.S. Army Tank-Automotive and Armament Command,
                           Warren, Michigan, reported that they could not locate the
                           Illinois Military Museum, Greenup, Illinois, nor military
                           equipment provided to the museum under the Army’s
                           Conditional Deed of Gift Program. The Illinois Military
                           Museum was issued an M60A1 tank, two M60A3TTS tanks,
                           two M114 Armored Personnel Carriers, two M42 Dusters, two
                           Iraqi cargo trucks, one 25mm Japanese gun, one mortar and one
                           Mercedes truck. The investigation revealed that the museum did
                           not exist and that the property had been diverted to private
                           individuals over a three-state area. As a result, the deeds of gift
                           were revoked and the military property, valued at more than
                           $1.9 million, was recovered and returned to the Government.
                           (DCIS/CIDC)

                       •   An M60A3TTS tank, valued at $1.2 million, was seized from
                           Randell Smith of Bloomington, Illinois. Smith, a member of
                           Veterans of Foreign Wars (VFW) Post 454, Bloomington,
                           Illinois, requested the tank on behalf of his organization through
                           the DoD Conditional Deed of Gift Program for a World War II
                           memorial. Subsequently, officials of VFW Post 454 decided not
                           to acquire the tank. However, the DoD was not informed of this
                           decision and Smith, using his own funds, arranged to have the
                           undemilitarized tank transported directly to his Bloomington
                           residence. (DCIS)

                       •   Jet Reclamation Incorporated, its President and Chief Executive
                           Officer and four Government employees pled guilty to criminal
                           charges arising out of a major theft scheme. New and used, but
                           serviceable, aircraft parts were stolen from the Defense
                           Logistics Agency and Defense Reutilization Marketing Service
                           warehouses on Kelly Air Force Base, Texas. The parts were
                           then sold to aircraft surplus and parts dealers. All defendants
                           await sentencing. (DCIS/AFOSI/FBI/USCS/IRS)

  Redistribution and   •   Donnell L. Beutel, former surplus property screener for the Port
  Marketing Fraud          of Bandon, Bandon, Oregon, was sentenced to 1 year and 1 day

                                       28
Semiannual Report to the Congress                                                           Chapter Two




                                        in prison, 3 years probation, 600 hours of community service
                                        and ordered to pay $82,996 restitution and a $75 assessment
                                        stemming from the illegal sale of Federal surplus property.
                                        Beutel previously pled guilty to theft of Government property
                                        and f ailur e to file individual i ncom e tax return s. An
                                        investigation into the Port of Bandon's use of Federal surplus
                                        property determined Beutel unlawfully acquired, possessed and
                                        sold Federal surplus property obtained by Beutel from various
                                        Defense Reutilization and Marketing Offices. In addition to
                                        violating laws governing the Federal Surplus Property Program,
                                        Beutel personally profited from the sale of the property. (DCIS/
                                        IRS)

HOTLINE                                                                                               H
                                                                                                      O
                                                                                                      T
                                                                                                      L
                                                                                                      I
                                                                                                      N
                                                                                                      E

                                                                                                      H
                                                                                                      O
                                                                                                      T
                                                                                                      L
                                                                                                      I
                                                                                                      N
                                                                                                      E

                            During this reporting period, the Hotline received 7,016 telephone calls
                            and letters resulting in the initiation of 898 cases. During the same
                            period, the Hotline closed 1,013 cases. The Hotline distributed over
                            7,000 Hotline posters and other Hotline informational materials to
                            various DoD activities and DoD contractors in a continuing effort to
                            promote use of the DoD Hotline. Since the Hotline’s inception in 1982,
                            over $415 million has been recovered as a direct result of inquiries
                            initiated in response to information provided to the Hotline.

 Significant Hotline                •   An ongoing DCIS Voluntary Disclosure investigation
 Complaints                             (supplemented by a subsequent Hotline referral) alleged that a
                                        Government contractor falsified ammunition test results,
                                        resulting in defective ammunition. The contractor agreed to a
                                        $2.4 million civil settlement.

                                                    29
 Chapter Two                                                  Semiannual Report to the Congress




                         •   In response to a Hotline complaint, the OIG, DoD, audited a
                             defense contract involving maintenance and repair of the C-20
                             Aircraft. The audit identified $887,000, which can be realized
                             from recouping unreasonable costs for past purchases of new
                             parts. In addition, the defense contractor is now purchasing new
                             parts at a substantial reduction in price, with additional
                             monetary savings of $1.26 million over the life of the contract.

                         •   As a result of a Hotline complaint, an investigation by the NCIS
                             substantiated allegations that a U.S. Marine supply specialist
                             was in possession of a helicopter blade valued at approximately
                             $9,000. The helicopter blade was subsequently seized by NCIS
                             agents and returned to its appropriate command.

ADMINISTRATIVE      The OIG, DoD, Departmental Inquiries Office conducts investigations
INVESTIGATIONS      and also performs oversight of investigations conducted by the Military
                    Departments. These investigations pertain to:

                         •   Allegations of whistleblower reprisal against military members,
                             Defense contractor employees and nonappropriated fund
                             employees.

                         •   Allegations that military members were referred for mental
                             health evaluations without being afforded the rights prescribed
                             in the DoD Directive and Instruction pertaining to mental health
                             evaluations of members of the Armed Forces.

                         •   Noncriminal allegations against senior military and civilian
                             officials within the DoD.

Whistleblower       During the reporting period, the Special Inquiries Directorate received
Reprisal Activity   200 complaints of whistleblower reprisal. Of these complaints, 47 did not
                    meet the criteria for investigation. An additional 40 were closed after
                    preliminary analysis determined that further investigation was not
                    warranted. The remaining 113 cases are undergoing preliminary analysis
                    or are being investigated by Special Inquiries staff or Military
                    Department Inspectors General.

                    We closed 108 cases during the reporting period. Approximately 14
                    percent of the cases contained one or more substantiated allegations of
                    whistleblower reprisal. Of the closed cases, 23 cases included alleged
                    violations of the DoD Directive on referrals for mental health evaluation.
                    We substantiated violations of the Directive in 6 of these cases. Figures 4

                                           30
Semiannual Report to the Congress                                                           Chapter Two




                            and 5 (page 32) illustrate results of whistleblower reprisal activity during
                            the reporting period.

 Implementing the           The National Defense Authorization Act for Fiscal Year 1999 included
 Modifications to           modifications to 10 U.S.C. 1034 to improve the timeliness of processing
 Title 10, United           military whistleblower reprisal cases. Of greatest import, Inspectors
 States Code,               General within the Military Departments now have the authority to
 Section 1034               immediately grant coverage under the statute to Service members who
                            make reprisal allegations, thus allowing the investigative process to
                            begin without first processing the complaint through the OIG, DoD.

                            During the reporting period, we issued interim procedural guidance to the
                            Military Departments to implement the modifications to the statute, and
                            we are currently revising the implementing DoD Directive. We also
                            developed and presented a new training course for OIG investigators
                            within the Military Departments to help facilitate their expanded
                            responsibilities for receiving reprisal allegations and conducting
                            investigations.

 Examples of                        •   An Air Force master sergeant assigned to a joint Defense
 Substantiated                          Agency received an adverse enlisted performance report (EPR),
 Military                               his reassignment was canceled and his end-of-tour award was
 Whistleblower                          denied in reprisal for making protected communications about
 Reprisal Cases                         the improper use of Government vehicles by his chain of
                                        command. After the reprisal investigation, the master sergeant's
                                        reassignment was reinstated and he received a service medal.
                                        Further, the agency assisted the master sergeant in applying to
                                        the Board for Correction of Military Records to have the
                                        adverse EPR removed from his record.

                                    •   A lieutenant colonel in the Army Active Guard Reserve was
                                        relieved of his duties as an IG, received a Relief for Cause
                                        Officer Evaluation Report (OER) and a General Officer Letter
                                        of Reprimand (LOR) in reprisal for communicating with
                                        another IG relative to activities within his reserve unit. As a
                                        result of the reprisal investigation, Army officials placed an
                                        LOR in the official personnel file of the general officer
                                        responsible for the reprisal actions.

                                    •   A Marine Corps pilot was reassigned and received a negative
                                        fitness report in reprisal for complaining to his commanding
                                        general about safety violations and abuse of authority by a


                                                    31
Chapter Two                                                                                                  Semiannual Report to the Congress




                                               W h is t le b lo w e r R e p ris a l In q u irie s
                                                 B y C a t e g o ry o f E m p lo y e e *
                                                O p e n A s O f M a rc h 3 1 , 1 9 9 9

                      250
                                               19 3
                      200

                      150

                      100

                        50
                                                                                   15                                  15

                          0
                                          M ilitary                               NAF                           Contract

              * This graph provides a breakdow n of reprisal cases according to the category of employee who filed th e
              com plaint (Service M ember, non-appropriated fund (NAF) employee or employee of a D efense contractor). In
              addition to the 223 reprisal cases shown here, Special Inquiries also had 4 open cases involving other m atters,
              such as alleged im proper m ental health evaluations.

                                                                           Figure 4



                                                   W h is t le b lo w e r R e p ris a l In q u irie s
                                                   B y O f f ic e C o n d u c t in g R e v ie w *
                                                     O p e n A s O f M a rc h 3 1 , 1 9 9 9

                      140
                                                                                                                                         12 0
                      120
                      100
                        80
                                       58
                        60
                        40                                                    26
                                                           21
                        20
                                                                                                  1                   1
                          0
                                      Army               N a vy             US AF              USM C             D e fe ns e          Spe c ia l
                                                                                                                 Ag e nc ies         Inquirie s

                  * Th is g rap h p rov id es a b reak do w n o f m ilitary w h istleb lo w er rep risal inq uiries acco rding to th e
                  organ ization s con d uctin g the inq uiry. Inq u iries co m p leted by other org anization s are su bm itted to the
                  Sp ecial Inqu iries D irectorate for review . T he 1 20 Sp ecial In qu iries cases inclu d e in itial an alysis of n ew
                  com p laints and active in vestigation s.

                                                                            Figure 5

                                                                             32
Semiannual Report to the Congress                                                             Chapter Two




                                        superior officer. The pilot's fitness report was later corrected to
                                        remove negative comments.

                                    •   An Army staff sergeant received an LOR, an adverse Non-
                                        Commissioned Officer Evaluation Report (NCOER), and an
                                        unfavorable counseling statement in reprisal for making
                                        protected communications to a National Guard IG. The LOR
                                        and adverse NCOER were removed from the staff sergeant's
                                        official personnel file. Responsible management officials were
                                        counseled formally. The battalion commander responsible for
                                        the LOR resigned his commission.

 Examples of                        •   The decision to terminate a bartender at the Whidbey Island
 Nonappropriated                        Naval Air Station Officers Club was made in reprisal for the
 Fund Employee                          bartender's protected communications regarding improprieties
 Whistleblower                          by her supervisor. Based on the finding of reprisal, the Director
 Reprisal Cases                         for Administration and Management, Office of the Secretary of
                                        Defense, directed that the bartender receive monetary
                                        compensation for lost wages and be offered a comparable
                                        position.

 Senior Official            Figures 6 and 7 (page 34) show results of activity on senior official cases
 Inquiries                  during the reporting period. On March 31, 1999, there were 250 ongoing
                            investigations into alleged senior official misconduct throughout the
                            Department, up slightly from the 233 cases that we reported open as of
                            October 1, 1998. Over the past 6 months, we closed 171 senior official
                            cases; 25 of the closed cases (15 percent) contained substantiated
                            allegations.

 Example of                         •   At the request of several Members of Congress, we conducted
 Substantiated                          an invest igat ion to address al legati ons that religious
 Senior Official                        discrimination and other improprieties in the conduct of two
 Cases                                  Navy Selection Boards for Chaplain Corps Commanders
                                        unfairly resulted in the nonselection of one eligible officer. We
                                        found insufficient evidence to support allegations that either
                                        board made selections based on denomination or that board
                                        members engaged in misconduct. With one exception, we
                                        concluded that the selection boards operated in conformance
                                        with laws and regulations that govern the selection board
                                        process. That exception involved a board member who made
                                        adverse comments regarding one eligible officer who was
                                        ultimately not selected for promotion by that board. Because the
                                        comments at issue were inadmissible during board proceedings,

                                                    33
Chapter Two                                                                                      Semiannual Report to the Congress




                                                             Pro g ra m In t e g rit y
                                                         S e n io r O f f ic ia l In q u irie s
                                                     O p e n A s o f M a rch 3 1 , 1 9 9 9

                 160           142
                 140
                 120
                 100
                  80
                  60                                                                                  43

                  40                                                                                                    33
                                                   16              15
                  20
                                                                                     1
                   0
                             Army               Navy            USAF             USMC             Defense          Program
                                                                                                  Agencies         Integrity
              This graph provides a breakdown of senior official
              cases according to the organization conducting the
              inquiry. Inquiries completed by other organizations                Total Open Cases: 250
              are submitted to the Program Integrity Directorate
              for review.


                                                                   Figure 6




                                                          P ro g ra m In t e g rit y
                       N a t u re o f S u b s t a n t ia t e d A lle g a t io n s A g a in s t S e n io r O f f ic ia ls
                                                       D u rin g 1 s t H a lf F Y 9 9
                                               S e x ua l
                                            H aras s me nt/                   M ak ing D e ce ptive
                                              Imprope r                          S ta te me nts
                                            R e la tions hip                       to an IG                A bus e o f Autho rity/
                                                 17 %                                 11 %                 M is us e of Pos itio n
                                                                                                                    1 5%




                                                                                                               M is us e G o v't
                                                                                                                 Prope rty /
                        O the r M is co nduct
                                                                                                                R e s o urce s
                                2 9%
                                                                                                                    13 %
                                                                               Imprope r
                                                                          Pe rs onne l A ction
                                                                                 1 5%


                                     Total Cases: 171                     Substantiated: 25

                                                                   Figure 7



                                                                   34
Semiannual Report to the Congress                                                            Chapter Two




                                        we determined that "material error" within the meaning of
                                        selection board statutes had occurred. At our recommendation,
                                        the Secretary of the Navy approved a special selection board for
                                        the affected officer.

                                    •   In another case, we found that a senior DoD official improperly
                                        directed that Government funds be obligated to obtain a
                                        l i m ousi ne and chauff eur f or hi s offi ci a l t r avel fr om
                                        Williamsburg, Virginia, to Washington, D.C. The senior
                                        official has since reimbursed the Government for the cost
                                        incurred.

 Update                     In our previous semiannual report, we provided the results of an
                            investigation that substantiated allegations that a senior officer engaged
                            in a pattern of inappropriate conduct with the wives of subordinates
                            during an overseas assignment and made false and misleading statements
                            in an effort to deceive others concerning his conduct. We referred the
                            matter to the cognizant Military Department for appropriate action. As
                            part of a pre-trial agreement, the senior officer entered a plea of guilty to
                            seven counts of conduct unbecoming an officer and one count of making
                            a false official statement. The individual was only the third general or
                            flag officer court-martialed since the enactment of the Uniform Code of
                            Military Justice in 1950 and the first ever prosecuted after retirement.
                            Pursuant to the pre-trial agreement, he received a reprimand and fines
                            and forfeitures totaling $22,000. The sentence is pending action by the
                            General Court-Martial Convening Authority.

AUDITING                    The OIG, DoD, auditors and those of the Military Departments issued
                            259 reports during the reporting period, identifying over $3.3 billion in
                            potential monetary benefits and recommending improvements across a
                            wide spectrum of management activities, including the high risk areas
                            discussed in Chapter One.

                            See Appendix A for a list of audit reports, sorted by major subject area.
                            Appendices B and C list OIG, DoD, audit reports with quantifiable
                            monetary benefits and DoD internal audit followup activities,
                            respectively. The DCAA also continued providing essential financial
                            advice to DoD contracting officers, as summarized in Appendix D.

 Readiness Audits           In addition to the audits discussed in the focus area of Chemical and
                            Biological Defense, we continued our assessments of factors that inhibit
                            other warfighting capabilities. Two particularly significant reports related


                                                    35
Chapter Two                                                      Semiannual Report to the Congress




                        to communications support in the two major regional conflicts strategic
                        planning scenario.

                        This audit activity determined that more emphasis is needed on managing
                        critical “long-haul” telecommunications. The DoD needs to clarify its
                        requirements and match them more systematically against available
                        leased commercial satellite bandwidth capacity. In addition, more inten-
                        sive management is needed to ensure that reliable service is being
                        provided at reasonable cost. For example, the Department lacks an
                        inventory of its international maritime satellite terminals and does not
                        know either the associated costs or when economies of scale could be
                        achieved through combined purchasing. Because the $11.4 billion DoD
                        Commercial Satellite Communications Initiative has not provided
                        adequate service, the combatant commands have been independently
                        leasing commercial satellite communications. Management agreed with
                        these findings and the numerous related recommendations. Compre-
                        hensive corrective actions will include establishing procedures for
                        centralized procurements and a Joint Staff reassessment of the right mix
                        of commercial and DoD-owned satellite communications capability to
                        match requirements.

                        The Department also needs to confront the challenges posed by the
                        increasing limitations on military use of the electromagnetic frequency
                        spectrum. At least 89 military systems, including telecommunications
                        and weapon systems, were deployed to the European, Pacific and
                        Southwest Asian theaters without the proper frequency certification and
                        host nation approval. In addition, the Military Exchange stores were
                        selling products that were not covered by, or compliant with, host nation
                        frequency agreements. As a result, communications equipment deployed
                        without host nation approval and frequency assignments cannot be used
                        to its full capability for training, exercises or operations without risking
                        damage to host nation relations and degraded performance. Potential
                        frequency spectrum conflicts should be considered during system design,
                        when host nation agreements are negotiated and before systems are
                        deployed.

 “The DoD needs a more systematic            The DoD needs a more systematic process to
 process to update telecommunications update telecommunications agreements with other
 agreements with other countries.”           countries, clarification of accountability for
                                             managing those agreements and more emphasis on
                       compliance with them. The most recent register of telecommunications
                       agreements is over 4 years old.


                                              36
Semiannual Report to the Congress                                                         Chapter Two




                            The Joint Staff generally agreed with our report, but emphasized that
                            national policies to sell usage rights for portions of the frequency
                            spectrum are the root problem and DoD cannot compensate fully through
                            management action. More emerging technology demands worldwide,
                            plus increasing international consensus for decreasing worldwide
                            frequency spectrum set-asides for military use, will eventually negate the
                            stated DoD goal of “spectrum supremacy.” Global commercial interests
                            will have co-opted spectrum supremacy while eroding individual
                            nations’ regulatory authority. Nevertheless, the Department is
                            implementing our recommendations. For example, compliance with
                            spectrum management policy will be emphasized at all acquisition
                            milestones for new systems. The Army and Air Force Exchange Service
                            and the Navy affirmed that actions would be taken to confirm frequency
                            spectrum-dependent products are compatible with host nations, and to
                            cease selling noncompliant products.

 OIG, DoD,                  On February 25, 1999, the Inspector General testified before the House
 Testimony                  Subcommittee on National Security, Veterans Affairs and International
                            Relations regarding the most serious Defense management issues. The
                            testimony recapped the high risk areas confronting the Department.
                            Many of the issues covered are addressed in Chapter One and have also
                            been addressed as focus areas in previous Semiannual Reports to
                            Congress.

                            On March 2, 1999, the Assistant Inspector General for Auditing testified
                            before the House Subcommittees on Technology and on Government
                            Management, Information and Technology concerning year 2000
                            conversion progress. The discussion of DoD Y2K issues in Chapter One
                            covers the main points in the testimony. The text of all IG, DoD, written
                            testimony is available on the internet at the OIG, DoD, Home Page at
                            www.dodig.osd.mil.

INTELLIGENCE                For information regarding specific work performed, see the Classified
REVIEW                      Annex to this report.




                                                 37
Chapter Two                                        Semiannual Report to the Congress




              This page left blank intentionally




                             38
Semiannual Report to the Congress                                                                      Appendix A


                        APPENDIX A*
REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS



 Excludes base level reports issued by the Air Force Audit Agency. Includes evaluation reports issued
 by the OIG, DoD.

 Copies of reports may be obtained from the appropriate issuing office by calling:

           OIG, DoD                                      Army Audit Agency
           (703) 604-8937                                (703) 681-9863

           Naval Audit Service                           Air Force Audit Agency
           (703) 681-9126                                (703) 696-8027




                            Summary of Number of Reports by Issue Area
                              October 1, 1998, through March 31, 1999



                                            OIG, DoD           Military Depts.                 Total
   Finance and Accounting                      26                       50                         76
   Information Technology                      43                       12                         55
   Acquisition Oversight                       20                       17                         37
   Logistics                                   14                       23                         37
   Quality of Life                              3                       18                         21
   Construction and Installation                4                       12                         16
   Support
   Environment                                  3                        3                           6
   Intelligence                                 2                        4                           6
   Health Care                                  0                        5                           5
   Total                                      115                     144                         259
   The OIG, DoD, also issued 4 reports on audit and criminal investigative oversight reviews and three
   testimony reports (99-088, 99-105 and 99-117). In addition, the Naval Audit Service issued one report on an
   audit oversight review.




  *Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(6).



                                                       A-1
Appendix A                                                           Semiannual Report to the Congress


                                  99-043 Navy Quantitative              AA99-12 Army and Air Force
ACQUISITION                       Requirements for Munitions            Exchange Service Transporta-
PROGRAM AND                       (CLASSIFIED) (12/3/98)                tion Charges in Support of
                                                                        Operation Joint Endeavor/Joint
CONTRACTOR                        99-048 Dispositioned Defective        Guard, U.S. Army, Europe and
OVERSIGHT                         Pricing Reports at the Naval Air      Seventh Army, Heidleberg,
                                  Systems Command (12/8/98)             Germany (11/13/98)

                                  99-051 Marine Corps Quantita-         AA99-73 Overhead Manage-
IG, DoD
                                  tive Munitions Requirements           ment and Contractor Logistical
99-001 Defense Logistics          Process (12/10/98)                    Support, U.S. Army Simulation,
Agency Procurements from                                                Training and Instrumentation
Federal Prison Industries, Inc.   99-053 Audit of the Allegations       Command, Orlando, Florida
(10/5/98)                         on the AN/PRC-137 Radio               (1/25/99)
                                  Program (CLASSIFIED)
99-002 Contracting for Defense    (12/14/98)                            AA99-81 Directorate of
Finance and Accounting Service                                          Logistics’ Performance Work
Support (10/5/98)                 99-054 Acquisition of the             Statement, U.S. Army Garrison,
                                  Advanced Amphibious Assault           Hawaii, Schofield Barracks,
                                  Vehicle (12/15/98)                    Hawaii (12/3/98)
99-011 Management of
Contract Waivers and Devia-       99-057 Settlement of
tions for Defense Systems                                               AA99-85 Performance Work
                                  Contractor Incurred Indirect          Statement, Fort Lee, Fort Lee,
(10/13/98)                        Cost Audits (12/21/98)                Virginia (12/21/98)
99-012 Use of Funds Appro-        99-071 Cooperative
priated for Major Defense                                               AA99-87 Global Command and
                                  Engagement Capability Program
Systems (10/14/98)                                                      Control System – Army
                                  Office Use of Defense Contract
                                                                        Program (1/22/99)
                                  Management Command
99-019 DoD Special Access         Resources (1/27/99)
Program (CLASSIFIED)                                                    AA99-99 Performance Work
(10/22/98)                        99-075 Acquisition of the SH-         Statement, Fort Monroe, Fort
                                  60R Light Airborne                    Monroe, Virginia (12/13/98)
99-021 Acquisition Manage-        Multipurpose System Mark III
ment of the Comanche Program      Block II Upgrade (2/2/99)             AA99-140 Performance Work
(11/4/98)                                                               Statement – Fort Eustis
                                  99-077 Allegations to the DoD         (2/12/99)
99-023 Procurement of Military    Hotline on Contract Mainte-
                                  nance for the C-20 Aircraft           AA99-147 Digitization of the
Clothing and Related Items by
                                  (FOR OFFICIAL USE ONLY)               Battlefield: Tactical Internet
Military Organizations (10/29/
                                  (2/4/99)                              (3/15/99)
98)
                                  99-114 C-17 Program                   Naval Audit Service
99-026 Commercial Spare Parts
Purchased on a Corporate          Serialization of Airframe
                                                                        001-99 Auditor General
Contract (10/30/98)               Fracture-Critical and Landing-
                                                                        Advisory: Program Executive
                                  Gear Reliability-Critical Parts
                                                                        Office Auditor Project
99-037 Initiatives to Improve     (3/24/99)
                                                                        (10/22/98)
Acquisition Lead Time
                                  Army Audit Agency
(11/23/98)                                                              009-99 Budget and
                                  AA99-1 Materiel Packaging             Programming Estimates for the
99-041 Ship Repair Contracts at   and Preservation, U.S. Army           Trident II (D-5) Missile
Supervisor of Shipbuilding,       Tank-Automotive and Arma-             Program Contained in the
Conversion and Repair,            ments Command, Warren,                Weapons Procurement, Navy
Jacksonville (11/27/98)           Michigan (10/15/98)                   Appropriation (11/25/98)


                                                A-2
Semiannual Report to the Congress                                                          Appendix A


010-99 Commercial Credit            99-078 Outsourcing of Defense      026-99 Base Operating Support
Card Programs at Naval Air          Commissary Agency Operations       Costs and Military Billets
Warfare Center Aircraft             (2/5/99)                           Associated with San Diego
Division (11/27/98)                                                    Regionalization (2/16/99)
                                    99-084 Defense Base
030-99 Program Executive            Realignment and Closure            Air Force Audit Agency
Office (Mine Warfare) Financial     Budget Data for Projects at
                                    Naval Air Station Oceana,          97052006 Personal Property at
Management Process and the                                             Closed and Realigned Bases
Explosive Ordnance Disposal         Virginia (2/22/99)
                                                                       (10/1/98)
Program Office (3/26/99)
                                    Army Audit Agency
                                                                       98052004 Facility Projects at
Air Force Audit Agency              AA99-4 Follow-up Audit of          Closed Bases (11/4/98)
                                    Corps Dredging, Headquarters,
97064001 C-17 Flexible Sus-                                            98052007 Dormitory Appliance
                                    U.S. Army Corps of Engineers,
tainment Acquisition (12/18/98)     Washington, DC (10/15/98)          Controls (1/29/99)

97064011 Electronic Data            AA99-8 Command Overhead
Interchange Procurement             Costs, U.S. Army Chemical and      ENVIRONMENT
Transactions (12/24/98)             Biological Defense Command,
                                    Aberdeen Proving Ground,
97064014 Flight Simulator           Maryland (11/9/98)                 IG, DoD
Acquisition, Management, and
Use (3/22/99)                       AA99-11 Public Works Con-          99-008 Summary Report on
                                    struction Contracts, Eighth U.S.   DoD Management of Under-
                                    Army, Seoul, Korea (11/13/98)      ground Storage Tanks (10/8/98)
97064015 USAF General-
Purpose Vehicles (2/1/99)
                                    AA99-49 Leased Family              99-020 Program Management
                                    Housing Issues, Fort Drum, Fort    Practices for the Installation
                                    Drum, New York (12/18/98)          Restoration Program at the
CONSTRUCTION                                                           Massachusetts Military
                                                                       Reservation (10/23/98)
AND INSTALLATION                    AA99-98 Management of
SUPPORT                             Commodity Licenses, U.S.
                                    Army Industrial Operations         99-040 Navy Hazardous
                                    Command, Rock Island, Illinois     Substance Management System
                                    (12/31/98)                         Contract (11/25/98)
IG, DoD
                                                                       Army Audit Agency
                                    AA99-138 Service Contracts,
99-007 Defense Base Realign-
                                    Eighth U.S. Army, Seoul            AA99-88 Management of
ment and Closure Budget Data        (2/12/99)
for Realignment of the Defense                                         Underground Storage Tanks –
Courier Service Station, South                                         Follow-up (12/14/98)
                                    AA99-172 Low-Level Radio-
Weymouth Naval Air Station,
                                    active Waste Disposal Program,     AA99-97 Recycling Contami-
Massachusetts, to McGuire Air
                                    U.S. Army Industrial Operations    nated Metal, Rock Island
Force Base, New Jersey              Command, Rock Island, Illinois
(10/8/98)                                                              Arsenal, Rock Island, Illinois
                                    (3/4/99)                           (12/31/98)
99-018 Unaccompanied                Naval Audit Service                Air Force Audit Agency
Enlisted Personnel Housing
Requirements for Naval Air          022-99 Military Construction,      98052005 Hazardous Waste
Station North Island, California    Navy Projects Proposed for         Cost and Quantity Reduction
(10/21/98)                          Fiscal Year 2000 (10/14/98)        (11/25/98)


                                                  A-3
Appendix A                                                         Semiannual Report to the Congress


                                  99-062 Major Deficiencies in        99-094 Inspector General, DoD,
FINANCE AND                       the Compilation and                 Oversight of the Army Audit
ACCOUNTING                        Consolidation of the Financial      Agency Audit of the FY 1998
                                  Statements for Other Defense        Financial Statements of the U.S.
                                  Organizations (12/29/98)            Army Corps of Engineers, Civil
IG, DoD                                                               Works Program (3/1/99)
                                  99-072 Cash Impact of the
99-004 Compilation of FY 1997     Consumable Item Transfer,
Air Force General Funds Con-      Phase II, FY 1998 (1/27/99)         99-095 Inspector General, DoD,
solidated Financial Statements                                        Oversight of the Air Force Audit
at the Defense Finance and        99-083 Application Controls         Agency Audit of the FY 1998
Accounting Service Denver         Over the Retiree and Casualty       Air Force General Fund
Center (10/5/98)                  Pay Subsystem at the Defense        Financial Statements (3/1/99)
                                  Finance and Accounting Service
99-005 Compilation of the         Cleveland Center (2/23/99)
Navy Working Capital Fund FY                                          99-096 Inspector General, DoD,
1997 Financial Statements at      99-087 Accounting                   Oversight of the Air Force Audit
Defense Finance and               Adjustments to the National         Agency Audit of the FY 1998
Accounting Service Cleveland      Guard and Reserve Equipment         Air Force Working Capital Fund
Center (10/5/98)                  Appropriation by the Army           Financial Statements (3/1/99)
                                  National Guard (2/24/99)
99-006 Consolidation Process                                          99-097 Internal Controls and
for FY 1997 Financial State-      99-089 Internal Controls and
                                                                      Compliance with Laws and
ments for Other Defense           Compliance with Laws and
Organizations (10/6/98)           Regulations for the Defense         Regulations for the DoD
                                  Logistics Agency Working            Agency-Wide Financial
99-010 DoD Military Retire-       Capital Fund Financial State-       Statements (3/1/99)
ment Health Benefits Liability    ments for FY 1998 (3/1/99)
for FY 1997 (10/13/98)                                                99-099 Inspector General, DoD,
                                  99-090 Internal Controls and        Oversight of the Naval Audit
99-013 Summary Report on          Compliance with Laws and            Service Audit of the Navy
Financial Reporting of Govern-    Regulations for the Defense
                                  Finance and Accounting Service      Working Capital Fund Financial
ment Property in the Custody of
Contractors (10/15/98)            Working Capital Fund Financial      Statements for FY 1998
                                  Statements for FY 1998              (3/1/99)
99-014 Compilation of the FY      (3/1/99)
1997 Financial Statements for                                         99-104 Inspector General, DoD,
Other Defense Organizations       99-091 Inspector General, DoD,      Oversight of the Audit of the
(10/15/98)                        Oversight of the Army Audit         Military Retirement Trust Fund
                                  Agency Audit of the FY 1998         Financial Statements for FY
99-016 National Security          Army General Fund Financial
                                  Statements (3/1/99)                 1998 (3/5/99)
Agency Fund Balance with
Treasury (CLASSIFIED)
(10/19/98)                        99-092 Inspector General, DoD,      99-109 Defense Hotline Allega-
                                  Oversight of the Naval Audit        tion on the Defense Commissary
99-032 Reporting of DoD           Service Audit of the Navy           Agency Statement of
Inventory and Operating           General Fund Financial State-       Accountability (3/22/99)
Materials and Supplies on the     ments for FY 1998 (3/1/99)
FY 1997 DoD Consolidated
                                                                      99-120 Financial Reporting of
Financial Statements (11/5/98)    99-093 Inspector General, DoD,
                                  Oversight of the Army Audit         Government Property in the
99-033 Department of Defense      Agency Audit of the FY 1998         Possession of Contractors for
Use of Pseudo Social Security     Army Working Capital Fund           the National Reconnaissance
Numbers (11/12/98)                Financial Statements (3/1/99)       Office (3/31/99)


                                                A-4
Semiannual Report to the Congress                                                          Appendix A


Army Audit Agency                   AA99-100 Closeout Audit of        AA99-126 Tracking
                                    Selected Inventory-Related        Efficiencies–Offset to Training
AA99-2 Program Objective
                                    Logistics Efficiencies, Deputy    Modernization (2/9/99)
Memorandum 98-03
                                    Chief of Staff for Logistics
Efficiencies–Management
                                    (12/23/98)                        AA99-131 Survey of Internal
Control and Oversight
(10/13/98)                                                            Controls over the Army
                                    AA99-102 Tracking                 Advertising (1/20/99)
AA99-3 Program Objective            Efficiencies – Training Aids,
Memorandum 98-03                    Devices, Simulators and           AA99-157 FY 98 Financial
Efficiencies – Program              Simulations (TADS) (1/25/99)
                                                                      Statements, U.S. Army Corps of
Executive Office                                                      Engineers, Civil Works,
Reorganization (10/13/98)           AA99-107 Army’s Principal         Washington, DC (2/8/99)
                                    Financial Statements for Fiscal
AA99-18 Corps of Engineers          Year 1998 – Financial Reporting
Financial Management System         of Wholesale Ammunition (12/      AA99-158 Army’s Principal
(11/6/98)                           31/98)                            Financial Statements for Fiscal
                                                                      Year 1998–Summary Audit
AA99-23 Program Objective                                             Report (2/18/99)
Memorandum 98-03                    AA99-108 Army’s Principal
Efficiencies–Science and            Financial Statements for Fiscal
                                    Years 1998 and 1997–Financial     AA99-160 Army Working
Technology (11/10/98)                                                 Capital Fund Principal Financial
                                    Reporting of Equipment,
AA99-35 Army Working                Reportable Item Control Codes     Statements for Fiscal Year
Capital Fund FY 97 Financial        (12/31/98)                        1998–Auditors Opinion
Statements–Materiel Returns                                           (2/19/99)
(12/3/98)                           AA99-109 Program Objective
                                    Memorandum 98-03                  AA99-161 Army Working
AA99-36 Army Working                Efficiencies, Test and            Capital Fund Principal Financial
Capital Fund FY 97 Financial        Evaluation (1/22/99)              Statements for Fiscal Year
Statements (12/29/98)                                                 1998–Report on Internal
                                    AA99-112 Army’s Principal         Controls and Compliance with
AA99-37 Army Working                                                  Laws and Regulations (2/12/99)
Capital Fund FY 97 Financial        Financial Statements for Fiscal
Statements–Accounting Support       Year 1998–Financial Reporting
(11/25/98)                          Equipment, Follow-up Issues       AA99-181 Program Objective
                                    (1/15/99)                         Memorandum 98-03
AA99-44 Review of the Army                                            Efficiencies–Utilities Moderni-
Management Control Process          AA99-115 Army’s Principal         zation–Central Heating Plant,
(Fiscal Year 1998), Office of the   Financial Statements for Fiscal   Fort Campbell, Kentucky
Assistant Secretary of the Army     Year 1998–Centralized             (3/30/99)
for Financial Management and        Disbursing, Defense Finance
Comptroller (11/5/98)               and Accounting Service,           AA99-188 Program Objective
                                    Indianapolis Center (1/27/99)     Memorandum 98-03
AA99-66 National Science                                              Efficiencies–Utilities Moderni-
Center Special Fund Financial                                         zation–Central Heating Plant,
Statement, Fort Gordon,             AA99-120 Tracking Initiatives–
                                    Competitive Sourcing and U.S.     Fort Lewis, Washington (3/31/
Georgia (12/14/98)                                                    99)
                                    Army Materiel Command
AA99-92 Program Objective           Reshape (1/25/99)
Memorandum 98-03                                                      AA99-189 Program Objective
Efficiencies, Office of the         AA99-125 Army’s Principal         Memorandum 98-03
Director of Information Systems     Financial Statements for Fiscal   Efficiencies–Utilities Moderni-
for Command, Control, Com-          Year 1998–Financial Reporting     zation–Central Heating Plant,
munications, and Computers,         of Budgetary Resources            Fort Benning, Georgia
Pentagon (2/12/99)                  (2/3/99)                          (3/31/99)


                                                  A-5
Appendix A                                                          Semiannual Report to the Congress


AA99-191 Army’s Principal         024-99 Department of the Navy        98068013 Opinion on Fiscal
Financial Statements for Fiscal   Principal Statements for Fiscal      Year 1998 Air Force Working
Year 1998–Supplemental            Year 1998: Report on Auditor’s       Capital Fund Financial
Stewardship Reporting of          Opinion (2/10/99)                    Statements (3/1/99)
National Defense Equipment
(3/26/99)                         025-99 Obligations Associated        98068029 Cryptographic
                                  Primarily with Indefinite            Equipment Financial Reporting
AA99-192 Army’s Principal         Delivery Contracts and Basic         (3/19/99)
Financial Statements for Fiscal   Ordering Agreements (2/18/99)
Year 1998 – Financial Reporting
of Army General (3/26/99)         027-99 Fiscal Year 1998              HEALTH CARE
                                  Consolidated Financial State-
Naval Audit Service               ments of the Department of the
                                  Navy Working Capital Fund            Army Audit Agency
004-99 Auditor General            (2/22/99)
Opinion: Department of the                                             AA99-69 Medical Facility Year
Navy Annual Statement of          028-99 Department of the Navy        2000 Action Plans, U.S. Army
Assurance for Fiscal Year 1998    Principal Statements for Fiscal      Medical Command, Fort Sam
(11/16/98)                        Year 1998: Report on Internal        Houston, Texas (12/9/98)
                                  Controls and Compliance with
005-99 Department of the Navy     Laws and Regulations (2/10/99)       AA99-72 Emergency Room
Principal Statements for Fiscal                                        Operations, U.S. Army Medical
                                  Air Force Audit Agency               Command, Fort Sam Houston,
Years 1997 and 1996: Selected
Assets and Expenses (11/20/98)    97053005 Accounting for Air          Texas (12/7/98)
                                  Force Liabilities, Fiscal Year
                                                                       Air Force Audit Agency
006-99 Department of the Navy     1997 Air Force Consolidated
Principal Statements for Fiscal   Financial Statements (11/4/98)       97051009 Advisory Report,
Years 1997 and 1996: Military                                          Occupational Health Program
Equipment (11/20/98)              97053006 Accounting for              Costs (10/1/98)
                                  Property, Plant, and Equipment,
007-99 Department of the Navy     Fiscal Year 1997 Air Force           97051035 Emergency Medical
Principal Statements for Fiscal   Consolidated Financial               Response Ambulance Services
Years 1997 and 1996: Mission      Statements (11/5/98)                 (11/23/98)
Assets Accountability
(11/20/98)                        97053010 Accounting for              98051007 Immunization
                                  Budgetary Resources, Fiscal          Management (2/11/99)
015-99 Department of the Navy     Year 1997 Air Force Consoli-
Principal Statements for Fiscal   dated Financial Statements
Years 1997 and 1996: Accounts     (2/11/99)                            INFORMATION
Payable (12/14/98)                                                     TECHNOLOGY
                                  97068018 Undistributed
                                  Disbursements, Air Force             RESOURCES
016-99 Quality Control Review     Working Capital Fund, Fiscal
of the Local Audit Function at    Year 1997 (12/11/98)
Commander, U.S. Naval Forces
Central Command, Manama,                                               IG, DoD
                                  98053002 Opinion on Fiscal
Bahrain (12/18/99)                Year 1998 Air Force                  99-003 Air Force Research
                                  Consolidated Financial               Laboratory Preparation for Year
017-99 United States/United       Statements (3/1/99)                  2000 (10/5/98)
Kingdom Polaris Trust Fund
(12/22/98)                        98068006 Memorandum Audit            99-009 Coordination of
                                  Report, Depot Maintenance            Electromagnetic Frequency
023-99 Management of Naval        Activity Group, Air Force            Spectrum and International
Air Reserve Force Base Opera-     Working Capital Fund                 Telecommunications Agree-
ting Support Funds (1/29/99)      (3/12/99)                            ments (10/9/98)


                                                A-6
Semiannual Report to the Congress                                                           Appendix A


99-015 Joint Centers’ Year          99-046 Year 2000 Initiatives at    99-070 Year 2000 Conversion
2000 Issues (FOR OFFICIAL           the Army Kwajalein Missile         Program at Hill, Patrick,
USE ONLY) (10/16/98)                Range (12/4/98)                    Holloman, and Vandenberg Air
                                                                       Force Bases (1/22/99)
99-017 Year 2000 Conversion         99-049 Year 2000 Contingency
of the Airborne Warning and         Planning and Cost Reporting at     99-074 Year 2000 Conversion
Control System (10/19/98)           the Defense Finance and            at the Atlantic Fleet Weapons
                                    Accounting Service (12/10/98)      Training Facility (1/29/99)
99-022 Year 2000 Conversion
                                    99-050 Year 2000 Issues for the    99-076 Year 2000 Posture of
at the Army Major Range and
                                    National Security Agency’s         DoD Mid-Tier Computer
Test Facilities (10/29/98)
                                    General Accounting and             Systems (2/3/99)
                                    Reporting Subsystem
99-027 DoD Base Communi-            (CLASSIFIED) (12/10/98)            99-079 Year 2000 Conversion
cations Systems Compliance                                             Program at the Dugway Proving
with Year 2000 Requirements         99-052 Year 2000 Conversion        Ground Major Range and Test
(10/30/98)                          of Logistics and Maintenance       Facility (2/9/99)
                                    Systems in Support of the Air-
99-028 Management of the            borne Warning and Control          99-081 Tooele Chemical Agent
Defense Special Weapons             System (12/11/98)                  Disposal Facility Preparation for
Agency Year 2000 Program                                               Year 2000 (2/16/99)
(10/30/98)                          99-055 Year 2000 Computing
                                    Issues Related to Health Care in   99-082 Year 2000 Computing
99-030 Management of the            DoD (12/15/98)                     Issues Related to the Defense
Defense Technology Security                                            Automatic Addressing System
Administration Year 2000            99-056 Management of Defense       Center (2/18/99)
Program (11/3/98)                   Finance and Accounting Service
                                    Mid-Tier Systems (12/18/98)        99-085 Year 2000 Issues within
                                                                       the U.S. Pacific Command’s
99-031 U.S. Pacific Command
                                    99-058 Year 2000 Conversion        Area of Responsibility: Hawaii
Year 2000 Issues (11/3/98)
                                    for Defense Critical Suppliers     Information Transfer System
                                    (12/18/98)                         (2/22/99)
99-034 Management of the On-
Site Inspection Agency Year         99-059 Summary of DoD Year         99-086 Year 2000 Issues within
2000 Program (11/12/98)             2000 Conversion – Audit and        the U.S. Pacific Command’s
                                    Inspection Results (12/24/98)      Area of Responsibility
99-035 Army Medical Research                                           (2/22/99)
Institute of Infections Diseases    99-060 Johnston Atoll Chemi-
Preparation for Year 2000           cal Agent Disposal System          99-098 Year 2000 Conversion
 (11/13/98)                         Preparation for Year 2000          Programs of the Defense Intelli-
                                    (12/24/98)                         gence Agency (3/4/99)
99-036 Army Research Labora-
tory Preparation for Year 2000      99-063 Global Positioning          99-100 Year 2000 Computing
(11/13/98)                          System Receiver Compliance         Issues: Defense Logistics
                                    with Year 2000 Requirements        Agency Distribution Standard
99-038 Year 2000 Initiatives at     (12/31/98)                         System (3/2/99)
the Pacific Missile Range
                                    99-068 Acquisition Manage-         99-103 DoD Efforts to Imple-
Facility (11/23/98)
                                    ment of the Composite Health       ment Year 2000 Compliance for
                                    Care System II Automated           Electronic Data Interchange
99-039 552nd Air Control Wing       Information System (1/21/99)       (3/4/99)
Year 2000 Infrastructure
Program for the Airborne            99-069 Summary of Audit            99-107 Computer Security for
Warning and Control System          Results–DoD Information            the Defense Civilian Pay System
(11/23/98)                          Assurance Challenges (1/22/99)     (3/16/99)


                                                  A-7
Appendix A                                                            Semiannual Report to the Congress


99-110 Application Controls         AA99-159 Long Haul Com-              Naval Audit Service
Over the Annuitant Pay Sub-         munications–Defense Switched
system at the Defense Finance       Network, U.S. Army, Pacific,         003-99 Program 98C
and Accounting Service Denver       Fort Shafter, Hawaii                 (CLASSIFIED) (11/23/98)
Center (3/23/99)                    (3/4/99)
                                                                         008-99 Cash Management of
                                                                         Potentially Sensitive Activities
99-111 Commercial Satellite         Air Force Audit Agency               (CLASSIFIED) (11/23/98)
Leased Capacity (3/26/99)
                                    97066031 Information Protec-
                                                                         029-99 Program 98B
99-112 Supercomputer Usage at       tion – Security Awareness,
                                                                         (CLASSIFIED) (3/5/99)
the National Security Agency        Training, and Education
(CLASSIFIED) (3/24/99)              (1/29/99)                            Air Force Audit Agency

                                    98058032 Long-Haul Telecom-          98058003 Intelligence
99-115 Summary of DoD Year                                               Advisory and Assistance
                                    munications (3/10/99)
2000 Audit and Inspection                                                Services Program (3/12/99)
Reports II (3/29/99)
                                    98066014 Information
                                    Protection–Implementing
99-118 Marine Forces Reserve                                             LOGISTICS
                                    Controls Over Known Vulnera-
Preparation for Year 2000
                                    bilities in United States Air
(3/31/99)
                                    Forces in Europe Computers
                                    (FOR OFFICIAL USE ONLY)              IG, DoD
Army Audit Agency                   (3/26/99)
                                                                         99-024 Contract Terminations
AA99-5 Information Systems                                               at Defense Industrial Supply
                                    98066018 Information                 Center and Defense Supply
Security Program Phase II
                                    Protection–Implementing              Center Philadelphia (10/29/98)
Follow-on Validation
                                    Controls Over Known Vulnera-
(10/15/98)
                                    bilities in Air Education and        99-029 Property Disposal
                                    Training Command Computers           Management Concerns
AA99-10 Information Systems         (FOR OFFICIAL USE ONLY)              (11/3/98)
Security, White Sands Missile       (3/8/99)
Range, Las Cruces, New
                                                                         99-042 Chemical and Biologi-
Mexico (10/2/98)                    98066021 Implementing                cal Collective Protection and
                                    Controls Over Known Computer         Decontamination Defense
AA99-16 Information Systems         Vulnerabilities in Air Force         Readiness (11/30/98)
Security–ASAS (10/9/98)             Special Operations Command
                                    (FOR OFFICIAL USE ONLY)              99-044 Strategic and Critical
AA99-60 Year 2000 Compli-           (11/4/98)                            Materials in the Defense
ance for Special Programs                                                National Stockpile (12/3/98)
(CLASSIFIED) (11/19/98)
                                                                         99-045 Chemical and
                                    INTELLIGENCE                         Biological Warfare Defense
AA99-89 Information Systems
                                                                         Resources in the U.S. Pacific
Security, 513th Military Intelli-                                        Command (CLASSIFIED)
gence Brigade, Fort Gordon,         IG, DoD                              (12/3/98)
Georgia (1/15/99)
                                    99-066 Operations of the             99-047 DoD Execution of the
AA99-90 Information Systems         National Assessment Group            Role Specialist Nation Mission
Security–National Ground            (1/8/99)                             in Bosnia (12/7/98)
Intelligence Center, U.S. Army
Intelligence and Security           99-073 Operations at the Office      99-061 M41 Protective Assess-
Command, Fort Belvoir,              of Special Technology                ment Test System Capabilities
Virginia (3/3/99)                   (CLASSIFIED) (1/29/99)               (12/24/98)


                                                  A-8
Semiannual Report to the Congress                                                        Appendix A


99-065 Tactical Missile             AA99-46 Ammunition               031-99 Navy Program to Report
Maintenance Consolidation –         Management (CLASSIFIED)          Missing, Lost, Stolen, or
Tube-Launched, Optically            (12/22/98)                       Recovered Arms, Ammunition,
Tracked, Wire Command                                                and Explosives (3/26/99)
Missile Launcher for the            AA99-68 Security and
Bradley Fighting Vehicle            Accountability of Small Arms,    Air Force Audit Agency
System (1/5/99)                     Ammunition and Explosives,       97062001 Aerospace Ground
                                    U.S. Army Reserve Components     Equipment Maintenance
99-067 Defense Medical              (12/14/98)
Logistics Standard Support–                                          (3/29/99)
Wholesale Program (1/12/99)         AA99-155 Chemical Agent          98051021 Active Duty Service
                                    Inventory Controls, Aberdeen     Commitments for Advanced
99-080 Status of the Defense        Proving Ground, Aberdeen,
Logistics Agency Plan to                                             Flying Training (2/8/99)
                                    Maryland (2/17/99)
Measure Inventory Record
                                                                     98061001 Memorandum
Accuracy at the Distribution        Naval Audit Service              Report, Air Force Category B
Depots Using Statistical
                                                                     Travel Program (10/1/98)
Sampling (2/10/99)                  011-99 Management of Family
                                    Housing Operations and           98061008 C-130 Aircraft
99-101 Logistics Response           Maintenance Resources
Time for the Direct Vendor                                           Reparable Spare Parts Funding
                                    (12/4/98)                        (12/21/98)
Delivery Process, Defense
Supply Center, Columbus             012-99 Government Vehicle        98061009 High Priority
(3/4/99)                            Usage at Naval Air Station       Mission Support Kits (12/4/98)
                                    Patuxent River, Maryland
99-102 Chemical and Biologi-
                                    (12/4/98)                        98061024 Air Mobility
cal Warfare Defense Resources
                                                                     Command Aviation Fuel
in the U.S. European Command
                                    013-99 Requirements for          Management (3/9/99)
(CLASSIFIED) (3/4/99)
                                    Unfilled Stock Requisitions at
99-108 Logistics Response           the Naval Inventory Control      98062001 C-130 Aircraft
Time for the Direct Vendor          Point (12/9/98)                  Propeller Accountability
Delivery Process, Defense                                            (12/18/98)
Supply Center, Richmond             014-99 Management of
                                    Government Furnished Aviation    98062002 Aircraft Maintenance
(3/17/99)                                                            Training Within Active Duty
                                    Material (12/10/98)
99-113 Nondeployable Naval                                           Units (10/9/98)
Reserve Component Personnel         018-99 Management of Marine
(3/24/99)                           Corps Secondary Depot
                                    Repairables Scheduled for        QUALITY OF LIFE
Army Audit Agency                   Rework (12/18/98)
AA99-6 U.S. Army Materiel                                            IG, DoD
Command Efficiency–                 020-99 Reliability of
Integrated Sustainment              Information Used for Student     99-025 Purchasing Restrictions
Maintenance (10/15/98)              Input Planning for Initial and   and State Taxation on Distilled
                                    Advanced Skills Training         Spirits (10/29/98)
AA99-26 Lessons Learned–            (1/8/99)
Chemical Stockpile Disposal                                          99-064 Basis for Recent Policy
Program, Aberdeen Proving           021-99 Management of Naval       Changes to the Drug Testing
Ground, Aberdeen, Maryland          Selected Reserve Mobilization    Rate for DoD Civilians
(11/9/98)                           Billets (1/11/99)                (12/31/98)

AA99-38 Distribution of             022-99 Material Returns          99-106 Commercial Life
Depot-Maintenance Workload          Program for Ships Parts          Insurance Sales Procedures in
(11/16/98)                          (1/15/99)                        DoD (3/10/99)


                                                  A-9
Appendix A                                                           Semiannual Report to the Congress


Army Audit Agency                  AA99-25 Reengineering                Air Force Audit Agency
                                   Overhead Support for Morale,
AA99-9 Morale, Welfare and         Welfare and Recreation               97051008 Support For Non-
Recreation Activities, Fort        Activities, Fort Campbell, Fort      appropriated Fund Financial
                                   Campbell, Kentucky (10/21/98)        Reporting (3/19/99)
Myer, Fort Myer, Virginia
(10/15/98)
                                   AA99-31 FY 98 Semiannual             98051023 Punitive Discharge
                                   Validation–Demonstration             Appellate Review (11/4/98)
AA99-13 Morale, Welfare and        Project for Uniform Funding of
Recreation Activities, Year 2000   Morale, Welfare and Recreation
Action Plans, U.S. Army            Activities (11/6/98)                 AUDIT OVERSIGHT
Community and Family Support
Center, Alexandria, Virginia       AA99-32 Reengineering                REVIEWS
(12/14/98)                         Overhead Support for Morale,
                                   Welfare and Recreation
                                   Activities, Fort Monmouth, Fort      IG, DoD
AA99-15 Reengineering
                                   Monmouth, New Jersey                 Unnumbered Joint Quality
Overhead Support for Morale,
                                   (10/28/98)                           Control Review of the Office of
Welfare and Recreation
Activities, Fort Lewis, Fort       AA99-33 Reengineering                Inspector General at the
Lewis, Washington (10/7/98)        Overhead Support for Morale,         National Reconnaissance Office
                                   Welfare and Recreation               (12/22/98)
AA99-17 Reengineering              Activities, Picatinny Arsenal,
                                   Dover, New Jersey (11/19/98)         99-6-001 Defense Contract
Overhead Support for Morale,                                            Audit Agency Audits of
Welfare and Recreation                                                  Contractor Compliance with
                                   AA99-43 Secretary of Defense
Activities, Fort Belvoir, Fort                                          Cost Accounting Standards
                                   Mess Fund Financial State-
Belvoir, Virginia (10/8/98)        ments, Pentagon (11/20/98)           (1/11/99)

AA99-19 Reengineering              AA99-62 General Officers’            99-6-002 Evaluation of the
Overhead Support for Morale,       Mess Fund Financial Statement        Department of the Army
Welfare and Recreation             (12/21/98)                           Internal Review Organizations
Activities, Fort Benning, Fort                                          (3/23/99)
Benning, Georgia (10/13/98)        AA99-104 Audit of European
                                   Region Payroll Operations,           99-6-003 Quality Control
                                   American Battle Monuments            Review of KPMG Pete
AA99-20 Reengineering              Commission, Arlington,               Marwick, LLP, The University
Overhead Support for Morale,       Virginia (1/7/99)                    of Delaware, Fiscal Year Ended
Welfare and Recreation                                                  June 30, 1998 (3/26/99)
Activities, Fort Bragg, Fort       AA99-154 Manpower Require-
Bragg, North Carolina              ments Determination System,          99-6-004 Defense Contract
(10/13/98)                         Assistant Secretary of the Army      Audit Agency Compensation
                                   (Manpower and Reserve                Audits (3/30/99)
                                   Affairs) (3/1/99)
AA99-24 Reengineering
Overhead Support for Morale,                                            Naval Audit Service
                                   AA99-193 FY 98 Annual
Welfare and Recreation             Validation–Demonstration             019-99 Quality Control Review
Activities, Fort Jackson, Fort     Project for Uniform Funding of       of the Local Audit Office at the
Jackson, South Carolina (10/20/    Morale, Welfare and Recreation       U.S. Naval Station, Roosevelt
98)                                Activities (3/15/99)                 Roads, Puerto Rico (12/28/98)




                                                A-10
Semiannual Report to the Congress                                  Appendix A




   Our report on the status of OIG, DoD, reports over 12 months old in
   which management decisions have been made but final action has not
   been taken has been provided to the Department and is available upon
   request.




                                    A-11
Appendix A                                        Semiannual Report to the Congress




             This page left blank intentionally




                           A-12
Semiannual Report to the Congress                                                                Appendix B




                               APPENDIX B*
         INSPECTOR GENERAL, DoD, AUDIT REPORTS ISSUED CONTAINING
               QUANTIFIABLE POTENTIAL MONETARY BENEFITS

                                                                           Potential Monetary Benefits
                                                                                ($ In thousands)

                                                                           Disallowed       Funds Put to
                   Audit Reports Issued                                      Costs1          Better Use

99-007 Defense Base Realignment and Closure Budget                            N/A                  $850
Data for Realignment of the Defense Courier Service
Station, South Weymouth Naval Air Station,
Massachusetts, to McGuire Air Force Base, New Jersey
(10/8/98)
99-024 Contract Termination at Defense Industrial Supply                      N/A                  1,900
Center and Defense Supply Center Philadelphia (10/29/98)
99-026 Commercial Spare Parts Purchased on a Corporate                        N/A                 12,500
Contract (10/30/98)
99-043 Navy Quantitative Requirements for Munitions                           N/A              2,300,000
(12/3/98)
99-064 Basis for Recent Policy Changes to the Drug                            N/A                  7,900
Testing Rate for DoD Civilians (12/31/98)
99-071 Cooperative Engagement Capability Program                              N/A                 51,600
Office Use of Defense Contract Management Command
Resources (1/27/99)
99-077 Allegations to the DoD Hotline on Contract                             N/A                  2,147
Maintenance for the C-20 Aircraft (2/4/99)
Totals                                                                         0              $2,376,897
     *Fulfills the requirement of 5 U.S.C., Appendix 3, Section 5(a)(6).
     1
     There were no OIG audit reports during the period involving disallowed costs.




                                                       B-1
Appendix B                                        Semiannual Report to the Congress




             This page left blank intentionally




                                    B-2
Semiannual Report to the Congress                                                                  Appendix C



                                           APPENDIX C*
                                       FOLLOWUP ACTIVITIES




         DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
            RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1
                                 ($ in thousands)

                                                    Number Funds  Put to
                          Status                             Better Use
A.     For which no management decision had been made by the                              41      $270,900
       beginning of the reporting period.
B.     Which were issued during the reporting period.                                   129       2,376,897
       Subtotals (A+B)                                                                  170       2,647,797
C.     For which a management decision was made during the reporting                    141         339,897
       period.
         (i)   dollar value of recommendations that were agreed to by                              250,600
               management
                 - based on proposed management action                                             250,600
                 - based on proposed legislative action
         (ii) dollar value of recommendations that were not agreed to by                            89,297
               management
D.     For which no management decision has been made by the end of the                   29      2,307,900
       reporting period.
       Reports for which no management decision was made within 6                             1           0
       months of issue (as of March 31, 1999).2
1There were no OIG audit reports during the period involving questioned costs.
2OIG
      Report No. 98-195, “Valuation and Presentation of Inactive Inventory on the FY 1997 Defense Logistics
 Agency Working Capital Fund Financial Statements, was issued August 27, 1998, and no management decision
 was made within 6 months of issuance. This report was successfully mediated and a management decision was
 reached April 9, 1999. Also, Army Audit Agency Report No. AAA98-211, “Army Working Capital Fund FY 1997
 Financial Statements: Advances and Prepayments, Non-Federal,” dated June 30, 1998, and four Navy Audit
 Service reports: No. 006-98, “Department of the Navy Fiscal Year 1996 Annual Financial Report: Accounts
 Payable and Accrued Payroll and Benefits,” dated November 14, 1997; No. 015-98, “Department of the Navy
 Fiscal Year 1996 Annual Financial Report: Department of Defense Issues,” dated December 12, 1997; No. 044-98,
 “Department of the Navy Principal Statements for Fiscal Years 1997 and 1996; War Reserves,” dated
 September 3, 1998; and No. 052-98, “Department of the Navy Principal Statements for Fiscal Years 1997 and
 1996: Fund Balance,” dated September 30, 1998, have been issued for which no management decision was made
 within 6 months of issuance.




 *Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(8)(9) and Section 5(b)(2)(3).




                                                       C-1
Appendix C                                                                     Semiannual Report to the Congress




                     STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                                       ($ in thousands)
                                                   Number of Questioned Funds Put to
                      Status of Action              Reports    Costs     Better Use
  OIG, DoD
  Action in Progress - Beginning of Period                               272                              $167,412
  Action Initiated - During Period                                       141                               250,600
  Action Completed - During Period                                       118                               518,402
  Action in Progress - End of Period                                     295                               147,7941
  Military Departments
  Action in Progress - Beginning of Period                               373                              8,358,114
  Action Initiated - During Period                                       163                                830,117
  Action Completed - During Period                                       169                              1,902,237
  Action in Progress - End of Period                                     367                              5,249,319
  1On
      certain reports (primarily from prior periods) with audit estimated monetary benefits of $263 million, it has been
   agreed that the resulting monetary benefits can only be estimated after completion of management action, which is
   ongoing.




                                                        C-2
Semiannual Report to the Congress                                                                      Appendix D




                                       APPENDIX D
                              CONTRACT AUDIT REPORTS ISSUED1
                                       ($ in millions)
                                                                                Audit            Funds Put to
       Type of Audit            Reports Issued           Examined             Exceptions          Better Use
 Incurred Costs2                        12,240               $43,383.4             $656.7                $178.4
 Forward Pricing Proposals               4,438                21,735.7                 --               1,319.7
 Cost Accounting                         1,339                   232.8               60.6                    --
 Standards
 Defective Pricing3                        353                       0               21.8                   --
 Other4                                      2                       0                 --                   --
 Totals                                 18,372               $65,351.9             $739.1             $1,498.1
 1Because   of limited time between availability of management information system data and legislative reporting
  requirements, there is minimal opportunity for the DCAA to verify the accuracy of reported data. Accordingly,
  submitted data is subject to change based on subsequent DCAA authentication.
 2Incurred cost funds put to better use are from the cost avoidance recommended in economy and efficiency audits

  of contractor operations.
 3Defective pricing dollars examined are not reported because they are considered a duplication of forward pricing

  dollars reported as examined.
 4Relates to suspected irregular conduct cases.




                       Waivers of Advisory and Assistance Service Contracts
        A review of each waiver made by the Department to any person for contracts for advisory
        and assistance services with regard to the test and evaluation of a system if that person
        participated in (or is participating in) the development, production or testing of such
        system for a Military Department or Defense Agency (or for another contractor of the
        Department of Defense). This review is required by Section 802, Defense Authorization
        Act for Fiscal Year 1990.

        The Department made no waivers during the period and therefore, no reviews were made
        by the OIG.




                                                       D-1
Appendix D                                        Semiannual Report to the Congress




             This page left blank intentionally




                            D-2
      THE HONORABLE ELEANOR HILL
               DEPARTS AS
           INSPECTOR GENERAL
        DEPARTMENT OF DEFENSE




Appointed by the President on March 1, 1995, as the
Department’s fourth Inspector General, Ms. Eleanor
Hill departed Government service on April 30, 1999.
Ms. Hill was recognized for her many contributions to
the Department of Defense when Secretary William
Cohen presented her the Department of Defense Medal
for Distinguished Public Service (second award).
Ms. Hill completed more than 24 years of combined
Government service, including various positions with
the Department of Justice and as a General Counsel
a n d St a f f D i r e c t o r o f t h e S e n a t e P e r m a n e n t
Subcommittee on Investigations. On June 1, 1999, she
will begin a new career with a private law firm in the
Washington, D.C., area.
